APPENDIX TABLE OF CONTENTS
Opinion of the Supreme Court of Vermont
(June 3, 2019)........................................

la

Findings and Order of the Superior Court
of Vermont (August 11, 2018).. ............

15a

Partial Proposed Order: Agreement on Parental
Rights and Responsibilities, Parent Child
Contact and Provisions Relating to Children
(August 17, 2018)............................................... 77a
Memorandum in Support of 8:00 a.m. Exchange
Time (July 23, 2018)........................ .................. 87a
Temporary Order on Parental Rights and
Parent-Child Contact (August 1, 2017)

89a

Extended Temporary Order: Relief from Abuse
(May 23, 2017)................................................

91a

Order of the Supreme Court Denying Motion for
Reargument (July 8, 2019)................................ 96a
Plaintiff Trail Exhibit
(June 6, 2018).....
Stipulation Re: Parent Child Contact
(June 9, 2017)........................ /......

98a
100a

App.la

OPINION OF THE
SUPREME COURT OF VERMONT
(JUNE 3, 2019)
SUPREME COURT OF VERMONT
JENNIFER DASLER
v.
TIMOTHY DASLER
Supreme Court Docket No. 2018-301
Appealed from: Superior Court, Orange Unit,
Family Division, Docket No. 74-6-17 Oedm
Trial Judge: Michael J. Harris
Before: Beth ROBINSON, Associate Justice.,
Harold E. EATON, Jr., Associate Justice.,
Karen R. CARROLL, Associate Justice.
In the above-entitled cause, the Clerk will enter:
Husband appeals pro se from the trial court’s final
divorce order. Both parties were represented by counsel
below. Husband challenges the court’s award of primary
legal and physical parental rights and responsibilities
(PRR) to wife, its division of the marital estate, and its
maintenance award. We affirm.
The parties were married for approximately five
years and they have a child, T.D., born in August 2015.
Both parties are young and in good health. Wife works
in the clothing industry; husband currently works for

App.2a

a construction company and pursues a side business
as a luthier, making and repairing musical instru­
ments. The parties separated in May 2017 following
several incidents that led wife to obtain a relief-fromabuse (RFA) order against husband; husband was also
charged with domestic assault. After evaluating the stat­
utory best-interest criteria, the court awarded primary
legal and physical PRR to wife based primarily upon
wife’s role as the child’s primary care provider, although
two other statutory best-interest factors slightly favored
wife as well. The court established a 50-50 parentchild contact schedule consistent with the parties’
stipulation. The court divided the marital estate and
ordered wife to pay $300 in monthly maintenance to
husband for two years. The court made numerous addi­
tional findings and conclusions, discussed in additional
detail below. Husband appealed.
In his brief, husband recounts his version of
events. With respect to PRR, husband argues that the
court ignored or mischaracterized wife’s behavior. He
asserts that the court should not have found wife
credible because she made contradictory statements.
Husband further argues that the court made erroneous
findings and abused its discretion in evaluating the
statutory best-interest factors. He raises numerous
claims of error within this overarching argument,
including a suggestion that the court was biased against
him.
“The trial court has broad discretion in a custody
matter, and we must affirm unless the discretion is
erroneously exercised, or was exercised upon unfounded
considerations or to an extent clearly unreasonable in
light of the evidence.” MacCormack v. MacCormack,
2015 VT 64, If 4, 199 Vt. 233 (quotation omitted).

App.3a
“Given its unique position to assess the credibility of
witnesses and weigh the evidence, we will not set
aside the family court’s findings if supported by the
evidence, nor its conclusions if supported by the find­
ings.” Porcaro v. Drop, 175 Vt. 13, 15 (2002) (quotation
and alteration omitted). In considering the court’s
factual findings, we “view[ ] the evidence in the light
most favorable to the prevailing party and exclud[e]
the effect of modifying evidence.” Cabot v. Cabot, 166
Vt. 485, 497 (1997) (quotation omitted).
At the outset, we emphasize that husband
essentially asks this Court to reweigh the evidence
and reach conclusions in his favor. It is the exclusive
role of the trial court to assess the credibility of
witnesses and weigh the evidence. Kanaan v. Kanaan,
163 Vt. 402, 405 (1995). We do not reweigh the evidence
on appeal. The court applied the appropriate statutory
standard in reaching its conclusion, its findings are
supported by the record, and the findings support the
court’s conclusion.
We begin by addressing husband’s challenges to
specific factual findings, but we do not directly
address all of husband’s challenges to the court’s
assessment of the weight of the evidence. Husband
asserts that the court erred in finding that after the
parties’ child was born in August 2015, wife had “no
overnight work travel” for the remainder of that year.
This folding is supported by the evidence. Wife testified
that in 2015, the parties traveled to Boston for a
work/family trip, staying in an apartment next door to
husband’s family. She stated that husband and the
child visited with husband’s family during the day
while she worked, and that she returned to the
apartment in the evening. Even if this finding was not

App.4a
supported by the record, the error would be harmless.
The court recognized that both parents played a
significant caregiving role for the child prior to their
separation in May 2017. The court noted, however, that
wife spent considerable time attending to child-rearing
activities despite working full-time and that she was
more active in setting up childcare and transporting
the child to and from childcare. To the extent that the
parties presented conflicting testimony on this issue,
the court credited wife’s testimony. The court also
found that wife did more of the child-rearing tasks
between May 2017 and February 2018. Looking over
the child’s entire lifetime, the court found that wife
had been her primary caregiver. While husband
disagrees with the court’s conclusion, he fails to show
error. See, e.g., Meyncke v. Meyncke, 2009 VT 84, If 15,
186 Vt. 571 (explaining that arguments that amount to
nothing more than disagreement with court’s reason­
ing and conclusion do not make out case for abuse of
discretion).
Husband also argues that the court erred in
making a finding about the temporary visitation
schedule that was in place following the alleged
domestic-violence incidents. The court found that
[although voluntary increased temporary visitation
for [husband] did not occur, . .. the Parties generally
abided by the temporary [parent-child contact] sched­
ule.” Husband’s argument on this point is not clear but
he appears to suggest that wife obstructed the
“normalization” of contact during this period. In a
similar vein, he argues that wife filed certain motions
concerning visitation during this period in bad faith.
The trial court found otherwise. It explained that
wife obtained a final RFA order against husband and

App.5a
filed motions through February 2018 seeking to limit,
husband’s visitation, citing safety concerns. While the
court ultimately determined that supervised visita­
tion was not required, it found that wife had not
knowingly made false claims against husband and she
had pursued supervised visitation based on her sub­
jective belief that safety concerns required it. Since
February 2018, wife had moderated her approach and
tried to co-parent with husband. While the parties had
strained communications with one another, the court
did not find that either parent had interacted with the
child in ways to undercut her relationship with the
other parent. The parties had also improved their
communication with one another. Husband fails to
show that the court erred either in its findings or its
evaluation of the parties’ “ability and disposition
.. . to foster a positive relationship and frequent and
continuing contact with the other parent.” 15 V.S.A.
§ 665(b)(5).
To the extent husband suggests that the court
was biased against him because it found wife’s
testimony credible, or awarded primary PRR to wife,
we reject that argument. The fact that husband
disagrees with the result does not demonstrate bias.
See Gallipo v. City of Rutland, 163 Vt. 83, 96 (1994)
(stating judicial bias cannot be demonstrated based on
adverse rulings alone); Ball v. Melsur Corp., 161 Vt. 35,
45 (1993) (stating that “bias or prejudice must be clear­
ly established by the record,” and “contrary rulings
alone, no matter how numerous or erroneous, do not
suffice to show prejudice or bias”), overruled on other
grounds by Demag v. Better Power Equip., Inc., 2014
VT 78, 197 Vt. 176. We also reject husband’s varied

App.6a
challenges to wife’s credibility as we leave credibility
assessments to the trial court.
Additionally, we reject husband’s attempt to
relitigate the incident that led to the RFA order against
him as well as a criminal domestic-assault charge. The
court credited wife’s version of events, about which she
testified at the final divorce hearing, for purposes of
the divorce order. It did not err in considering husband’s
conduct and the RFA order in evaluating the statutory
best-interest factors. See § 665(b)(9) (in evaluating
child’s best interests, court must consider “evidence of
abuse, as defined in [15 V.S.A. § 1101], and the impact
of the abuse on the child and on the relationship
between the child and the abusing parent”). The court
explained that the child was present during both
incidents at issue, including when husband twice
lifted a heavy tabletop and slammed it down and when
husband, who was angry and swearing, grabbed wife
by the arms and threw her to the ground. The court
found that the May 2017 incidents had secondary
impacts on husband’s relationship with the child as
well, including limits on visitation for a nine-month
period. These were relevant considerations.
We have considered all of the arguments that
husband raises in connection with the PRR award,
including that his due process rights were violated
and his arguments challenging the court’s findings
that wife’s mental-emotional condition is stable, and
we find them all without merit. Husband fails to show
that the court abused its discretion in awarding primary
legal and physical PRR to wife.
We next consider husband’s assertion that the
court’s division of the marital estate was inequitable.
Again, husband focuses on weight-of-the-evidence

App.7a
issues. He challenges the court’s valuation of various
items, including vehicles, tools, and musical instruments.
He also asserts, among other things, that the court
erred in calculating the parties’ income, determining
the length of their relationship, considering contrib­
utions to earning power, and dividing the equity in the
marital home.
The family court has broad discretion in dividing
the marital property, and we will uphold its decision
unless its discretion was abused, withheld, or exer­
cised on clearly untenable grounds. Chilkott v. Chilkott, 158 Vt. 193, 198 (1992). The party claiming an
abuse of discretion bears the burden of showing that
the trial court failed to carry out its duties. Field v.
Field, 139 Vt. 242, 244 (1981). “[T]he distribution of
property is not an exact science and does not always
lend itself to a precise mathematical formula; all that
is required is that such distribution be equitable.”
Victor v. Victor, 142 Vt. 126, 130 (1982).
Husband fails to show that the court abused its
discretion here. In making its property award, the
court made the following findings. The parties had
distributed all moveable personal property, including
vehicles. They contested the values for some personal
property items, particularly those involved with hus­
band’s luthier business. Apart from the parties’ retire­
ment accounts and wife’s current bank accounts, the
main asset was the marital home, which had equity of
$80,968.
In deciding how to divide the marital estate, the
court considered the factors set forth in 15 V.S.A.
§ 751(b). It determined that the marriage was rela­
tively short, lasting just under five years. It recognized
that the parties had periods of cohabitation before the

App.8a
marriage but found that the parties separated for a
time after their initial cohabitation and that there was
no indication at that time that they would resume
their relationship. The court determined that the parties’
lives became intertwined as a couple when they got
married and purchased a home. It noted that they
kept separate bank accounts until this time. The court
has discretion concerning the weight to be given to the
period of cohabitation prior to marriage in considering
the length of the relationship. See MacKenzie v. MacKenzie, 2017 VT 111, 1 13, 206 Vt. 244 (“The superior
court has broad discretion in considering each of the
statutory factors [in § 751(b)], including how to
calculate the length of the marriage under the circum­
stances of the case.”).
The court found that the parties were young,
healthy, and able to work in their respective professions.
Wife had maintained steady work in her field and she
had specialized skills that she could continue to use.
She currently earned about $80,000 per year. Wife
had a greater eai'ning capacity than husband and she
was more likely than husband to accumulate capital
assets and income in the future. Husband had the skills
and abilities to run his own luthier business but thus
far, he had not been able to earn more than a modest
income at this endeavor. Husband also had carpentry
skills and was currently earning about $33,500 per
year doing carpentry work. The court explained that
during the marriage, husband chose to work thirty
hours per week, rather than the offered forty, and
used the remaining workdays to conduct his luthier
business. Husband thus earned less income for the
household than he would had he worked full-time.
Finances were tight for the parties and the luthier

App.9a
business earned no appreciable income between 2012
and 2017. Wife tolerated but did not like husband’s
choice. The court found that wife’s forbearance in this
regard allowed husband to further his luthier training
skills while wife brought in the bulk of the household
income. After the parties’ child was born, husband
chose to continue devoting his time to the luthier busi­
ness, requiring the parties to pay for childcare on the
days he was not working at his other job.
As indicated, the marital home had about $81,000
in equity. Wife contributed about $6000 to the purchase
of the home. The court found that husband had
contributed more “sweat equity” to the home than wife,
but it could not track the impact of such labor on the
home’s fair market value in any reasonably accurate
manner. The parties had approximately $50,000
collectively in retirement accounts. Wife had about
$10,000 more in her retirement account than husband,
but the court found that husband had cashed in an
inherited IRA dining the separation period.
Husband had physical business assets—specialized
wood, tools, instruments, and accessories—that collec­
tively had significant value. The court found that hus­
band had valued his tools at $4350, and it used that
figure. Husband had also valued his instruments at
$43,660, which included three prized handmade violins
worth $20,000. Husband testified that the $20,000
custom violin values were the full retail sale value for
these custom instruments, which would be difficult to
obtain at any point in time. The court recognized that
husband’s musical instrument inventory was not an
asset that was readily liquidated for its full (potential)
retail market price. Mindful that husband had not
been able to regularly sell his custom violins during

App.lOa
the marriage, it adjusted the musical instrument figure
from $43,660 to $33,660 for personal property valua­
tion purposes. Taking the lower value into considera­
tion, the court found that husband was receiving
tangible personal property with a fair market value of
approximately $22,000 more in value than wife.
Based on these and other facts, the court awarded
each party the personal property in his or her possession
and awarded each their respective banking and
retirement accounts. Each party received a piece of
the child’s artwork. Husband was awarded his tools,
parts, wood, instruments and accessories, as well as
any work-in-progress or billing invoices associated
with his luthier or violin-selling business. Each party
was awarded his or her respective vehicle and the
court found that a third vehicle, a RAV4, had “minimal
value to the extent it has not yet .been junked or sold
for any residual value.” The court surmised that
husband might have traded this car in to obtain his
current vehicle. The court awarded wife the marital
home and the obligations associated with the home. It
awarded husband a cash payment of $24,000, secured by
the marital home and finked to its refinance and/or
sale. Finally, the court ordered wife to pay husband
$300 in monthly maintenance for two years.
Husband fails to show that this division of assets
was inequitable. He claims the right to “family heir­
looms, family letters, objects made by family, and
. . . the mutually agreed upon items” but there is no
evidence before us that husband did not in fact receive
those items nor is there an explanation as to why the
failure to award such items to him renders the court’s
decision inequitable. Husband notes that wife had
more money in her accounts than he did, but the court

App.lla
was mindful of this fact. He fails to show that he raised
any arguments about digital property or “privacy of
accounts” below, but even if he had, this would not
show that the award is inequitable.
As to the valuation of the vehicles, husband asserts
that wife’s car has more equity than his car. In its deci­
sion, the court recognized that husband asserted that
wife’s car had a certain fair market value and no debt.
The court instead accepted wife’s assertion that there
was a loan against the car and it accepted her
valuation of the vehicle. It noted that the difference in
the court valuation of her car had no appreciable
weight in the property division and maintenance award.
The court was simply letting each party keep his or
her own vehicle and pay all debt associated with it. As
to the RAV4, the fact that wife testified that she
obtained $800 for it does not undermine the court’s
finding that it had “minimal value” and the fact that
the court’s surmise was incorrect is immaterial.
The court did not err in valuing husband’s musical
instruments or considering the value of the instruments
he acquired during the separation period. Husband
offers no legal support for this latter argument. Cf. 15
V.S.A. § 751(a) (“All property owned by either or both
of the parties, however and whenever acquired, shall
be subject to the jurisdiction of the court.”). The court
provided a reasonable explanation for why it reduced
the value of these items. We note that husband, was
awarded his musical instruments.
Husband also argues that the court erred in
valuing his tools. To the extent that the court made a
mathematical error adding up the values provided by
husband, we conclude that an $800 difference does not
render the court’s division of the marital estate

App.l2a
inequitable. As the trial court emphasized at the outset
of its decision, “the distribution of property is not an
exact science5’ and “all that is required is that such
distribution be equitable.” Victor, 142 Vt. at 130. We
note that husband was awarded his tools. We reject
husband’s remaining arguments in this vein, includ­
ing his challenge to the court’s recognition that wife
made a $6000 down payment on the home and the
court’s inability to value husband’s sweat equity.
Again, these are challenges to the court’s evaluation
of the weight of the evidence. We conclude that the
court’s division of the marital estate, including its
division of the equity in the home, was equitable.
Husband next appears to challenge the court’s
maintenance award. He argues that the court erred in
evaluating wife’s ability to meet her reasonable needs
while meeting his need for maintenance and deter­
mining the length of the relationship. Husband argues
that wife should have been required to downsize and
restructure her debts so that she could pay more
maintenance. He questions why his child-support obli­
gation was not included in the calculation and argues
that he incurs unreimbursed travel and tool costs for
his job. He argues that in the period that preceded the
marriage, he sacrificed his own earning power by
relocating to Vermont.
The court may award maintenance when it finds
that a spouse lacks sufficient income and/or property
to “provide for his or her reasonable needs” and the
spouse is unable to support himself or herself “through
appropriate employment at the standard of living
established during the civil marriage.” 15 V.S.A. § 752
(a); Chaker v. Chaker, 155 Vt. 20, 24-25 (1990). The
maintenance must be in the amount and for the

App.l3a
duration the court deems just, based on the considera­
tion of seven nonexclusive factors. See 15 V.S.A. § 752
(b). Once the family court finds grounds for awarding
maintenance, it has broad discretion in determining
the duration and amount. Chaker,; 155 Vt. at 25. A
maintenance award will be set aside only if there is no
reasonable basis to support it. Id.
The court explained the basis for its maintenance
decision in detail. We do not recount all of the court’s
findings here. In material part, the court found that
husband lacked sufficient income to pay his reasonable
expenses and that he could not support himself at the
standard of living established during the marriage. The
court explained why it was not considering childrelated expenses in trying to review husband’s expenses
and needs. It also explained how it determined the dura­
tion of the relationship, as reflected above, reaching a
decision that was within its discretion. The court
considered wife’s income and expenses and concluded
that she lacked available income to make large main­
tenance payments. The court looked at the mainte­
nance guidelines provided by statute. It recognized
that the parties had significant earning capacity
differences and that husband would have more difficulty
than wife in meeting his reasonable monthly expenses.
The court determined that it was appropriate to have
wife pay lower monthly payments than the guidelines
and maintenance factors might otherwise suggest, but
to continue those payments for a longer period than
might be typical for a five-year marriage. It found wife
was more likely to be able to afford moderate sums for
a slightly longer period than higher monthly amounts
for a shorter period.

App.l4a
Husband fails to show that the maintenance award
lacks a reasonable basis. While husband would like
wife to be forced to “downsize,” the court reached a
different conclusion. Husband would similarly like the
court to have found that the parties’ relationship was
longer than five years. Again, the court reached a con­
trary conclusion that is grounded in the evidence. We
find no error in the court’s evaluation of the parties’
incomes. We note, moreover, that the court used an
income figure for wife that included her expected raise
thus bringing her income above her current salary. The
court considered all of the relevant statutory factors,
including husband’s reasonable expenses, and we find
no abuse of discretion. Even if not explicitly rejected
in this decision, we have reviewed all of husband’s
arguments and find them all without merit. This
includes husband’s arguments as to contributions to
earning power and his assertion that wife should pay
his attorney’s fees based on “abuse of process.”
Affirmed.
BY THE COURT:
/s/ Beth Robinson
Associate Justice
Is/ Harold E. Eaton. Jr
Associate Justice
Is/ Karen R. Carroll
Associate Justice

App.l5a

FINDINGS AND ORDER OF
THE SUPERIOR COURT OF VERMONT
(AUGUST 17, 2018)
STATE OF VERMONT
SUPERIOR COURT FAMILY DIVISION
ORANGE UNIT
JENNIFER DASLER,
Plaintiff,
v.
TIMOTHY DASLER,
Defendant
Docket No.74-6-17 Oedm
Before: Michael J. HARRIS, Superior Court Judge.,
Hon. Joyce MCKEEMAN, Assistant Judge.,
Victoria N. WEISS, Assistant Judge.
On 6/11/18, 6/12/18 and 7/2/18 the court conducted
a final divorce hearing in this matter. Plaintiff, Jennifer
Dasler (“Ms. Dasler” or “Plaintiff), was present with her
counsel, Attorney John B. Loftus, III. Defendant,
Timothy Dasler (“Mr. Dasler” or “Defendant”), was
present with his counsel, Attorney Todd Steadman.
The parties are collectively referred to in this matter
as the “Parties”. Contested issues for the final hearing
were property and debt divisions, Mr. Dasler’s request
for spousal maintenance and a final parental rights

App.l6a
and responsibility (“PRR”) and parent child contact
(“PCC”) order.
Based on the orders and pleadings in the record,
and the evidence presented at the hearing, the court
makes the following findings of fact and conclusions of
law:
1. The Parties married in Quechee, Vermont in
August 2012. They separated in May 2017.
2. They have lived separate and apart since that
time lived and both resided in Orange County, Vermont,
although Mr. Dasler now lived in New Hampshire.
There is no reasonable probability that the Parties
will resume marital relations.
3. The Parties have a daughter, Tenley Dasler
(DOB 8/27/15) (“Tenley”), born during the marriage.
4. Both Parties seek to waive the nisi period.
Background-Ms. Dasler
5. Jennifer Dasler was born 5/6/83 and she is 35
years old. She graduated high school at Oxbow Union
(2001), and attended Lasell College in Newton, MA
where she earned a BA degree in fashion design and
production in 2005.
6. Ms. Dasler’s education and work experience
allow her to work in the clothing and fashion design
from the design stages right through production of
garments.
7. After graduation she worked for about 18
months at a Massachusetts company that made lingerie
(Bennett & Co.).

App.l7a
8. Ms. Dasler then worked (April 2007 to Februaxy
2010) for a women’s apparel catalog company (Redcats
USA) doing sourcing and design, based in greater
Boston.
9. By 2010 she wanted to get out of the city, and
landed a job in March 2010 with the Vermont-based
Ibex clothing company. As noted below, she worked at
Ibex until being laid off in November 2017 as the com­
pany had an economic downturn. The company went
out of business in early 2018.
10. Following a three month job search, Ms.
Dasler started work at the Cabot Hosiery company in
Northfield, Vermont. Further details are provided
later in this opinion.
Background—Mr. Dasler
11. Timothy Dasler has a DOB of 11/16/80 and is
in good health.
12. Mr. Dasler grew up in Wisconsin, where he
still has family.
13. After high school he completed a two year
technical creditation program (Southeast Technical
College in Minnesota) focusing on the making and
repair of musical instruments.
14. In 2003 he went to work for the Johnson
String Instrument (“Johnson”) in the Boston area,
doing violin repairs and met Ms. Dasler in 2004.
15. Mr, Dasler ceased his Johnson employment
about 2 to 3 years later after they failed to provide
training he was promised. He earned $ 15/hour at the
company and it had benefits.

App.l8a
16. He returned to Wisconsin for a time, and later
returned to the Boston area (Jamaica Plain, MA) and
sold cars, and was later laid off.
17. As he prepared to resume his relationship
with Ms. Dasler (described elsewhere in this opinion)
he took a temporary census bureau worker position.
18. After Ms. Dasler moved to Vermont the Parties
soon moved in together.
19. Apart from Mr. Dasler’s self-employment work
in designing and building instruments and doing some
private repairs, Mr. Dasler had other employment
relating to his skills in making and repairing stringed
instruments.
20. Mr. Dasler worked for a time for the Vermont
Violin Shop company, which then had Burlington and
Lebanon, NH locations. Mr. Dasler made $ 15/hour and
the position involved travel between the companies’
three locations.
21. Eventually the position he was performing
was eliminated.
22. Starting in or around 2011, Mr. Dasler resu­
med private studies in instrument design/construction
with a reknown Boston instrument maker, Marilyn
Wallin. He worked with her one to two times a week
from 2011 until sometime in 2012.
23. In 2012, Mr. Dasler proposed working part
time for the Ellis Music Company. Ellis Music primarily
rents musical instruments on a large scale to school
students. Mr. Dasler was hired to do instrument
repairs, set up and other tasks. Although offered full
time employment, he wanted to limit his time working

App.l9a
for them to 30 hours (three 10-hour days), to allow him
to pursue his own luthier business goals.
24. Mr. Dasler quit Ellis Music 3/23/17 due to his
behef they were using unethical business practices. He
testified for example he was asked to set up and send out
a cello with a defective neck that could injure a user and
told not to collect tax on some materials used in
repairs, and some of his repairs were sent out
incomplete and/or uninspected.
Parties’ Early Years—Pre Marriage
25. The Parties met in 2004, when Ms. Dasler
was 21 years old or so and still in college. She was
living at the time in a Waltham, MA one bedroom
apartment. Mr. Dasler had an apartment in the same
building.
26. The Parties started to date by Spring 2005. Mr.
Dasler was working at the Johnson String Instrument
company at the time.
27. They started to live together by summer of
2005. During the time they lived together in
apartments, Mr. Dasler wanted to rent two bedroom
units. He wanted to use the second bedroom as a
woodworking area for his instrument-related repair
and building-design work. Ms. Dasler was okay with
renting such apartments and using second bedrooms
in that manner.
28. The Parties shared the apartment rent and
utilities on a 50/50 basis.
29. Over the next few years the Parties moved to
different apartments. Some of the moves put one party
or the other closer to his or her job, or involved

App.20a
neighborhood safety concerns. There may also have
been differences in the size, layout and amenities of
the apartments that also played a role as the Parties
made moves from Waltham to Somerville, MA, to
Melrose, MA to Bridgewater, MA.
30. By this time it was Summer and into early Fall,
2007. Mr. Dasler quit his Johnson String Instrument
job and went to see family in Wisconsin for a few
months. Around this time Mr. Dasler pursued a claim
against his former employer that was not successful.
As between the Parries, their relationship was strained.
Tight finances was one category of the issues. Mr.
Dasler moved out in September to October, 2007, and
Ms. Dasler lived in the apartment alone and completed
the lease period through July 2008.
31. At this point the Parties were no longer going
out.
32. Ms. Dasler then got an apartment (Sharon,
NH) by herself in July 2008 and was still working in
the greater Boston area.
33. As noted by February 2010, Ms. Dasler sought
to leave the Boston area and by March 2010 had
accepted a job offer from Ibex. She moved in February
2010 to Wethersfield, VT and rented an apartment on
her own.
34. By early 2010 Mr. Dasler was seeking to
resume his relationship with Dasler. She wanted him,
among other things, to have employment or a source
of regular income. He got a temporary job as a census
worker, and moved in with Ms. Dasler in May 2010.

App.21a
35. During the time the Parties resumed living
together, they split rent and utilities for the apartment.
They kept separate bank accounts.
36. Before the marriage, Ms. Dasler, who had
health care benefits from her Ibex job, was able to add
Mr. Dasler as an insured as the policy or coverage plan
allowed coverage for unmarried domestic partners.
37. During this period, Ms. Dasler worked at Ibex,
and after Mr. Dasler’s census worker job ended, he
was employed by Vermont Violins for about two years.
38. Mr. Dasler started his job at Ellis Music a few
months before the Parties married.
39. Mr. Dasler’s Ellis Music job became one bone
of contention for the Parties.
40. Mr. Dasler was offered full time work, but
only accepted 30 hours of work a week. He wanted time
to work on his luthier/ instrument building and design
skills and emergent business. As noted below after the
Parties married and Tenley was born Ms. Dasler
wanted him to accept the offered 40 hour/week work
being offered.
41. The Parties married in August 2012.
The Marital Residence Acquisition (September 2012)
42. In September 2012, the Parties purchased
their home at 74 North Road, Vershire, Vermont (the
“Marital Home”). Ms. Dasler has since that time conti­
nuously lived there.
43. The Marital Home was purchased for
$170,000. (Tr. Ex. 2). The month before the property
was appraised for $200,000 (Tr. Ex. 3) by Vermont
appraiser Bruce Taylor.

App.22a
44. At the time the home was purchased Mr.
Dasler had insufficient or poor enough credit and/or
income. Consequently, when the home was purchased
Ms. Dasler was the sole borrower. To accomplish the
purchase she contributed just over $11,000 from her
funds towards the down payment and closing expenses
(Tr. Ex. 2). Mr. Dasler lacked savings or funds to
contribute to the home acquisition costs.
45. Because the Daslers got $5,000 back from the
seller at closing, as a credit, a portion of the sums
shown expended by the Daslers towards closing was
ultimately reimbursed by the sellers.
46. The Marital Home was purchased within the
month of the marriage and was obtained in a “short
sale”.
September, 2012—August 2015 Period
47. During the early years of the marriage, before
Tenley was born, Ms. Dasler worked full time (Ibex),
and Mr. Dasler worked part time for Ellis Music and
pursued his luthier skills development/ business.
48. The Parties maintained at first separate
checking or bank accounts.
49. After the marriage they added a joint bank
account. They each still deposited paychecks to their
individual accounts, but on a roughly monthly basis
tallied shared household related expenses (mortgage,
food, utilities) and deposited sums into their joint
account to equalize their contributions to such expenses.
50. Additionally each Party maintained his or her
own individual account(s) to pay for their car related
expenses and personal expenses. Ms. Dasler’s work-

App.23a
provided medical plan provided health insurance for
the couple and she paid the employee/couple premium
share.
51. Ms. Dasler gave Mr. Dasler her password and
electronic access information for her personal account,
as well as allowed him access to the paper statements.
He did not give her access to statements for his personal
accounts.
52. Throughout the August 2012—August 2015
period Mr. Dasler worked part time and his self-em­
ployment activities, to work as a luthier and develop a
private instrument design/ building company, yielded
negligible income, as described later in this opinion.
53. Around Christmas, 2014 the Parties learned
Ms. Dasler was pregnant. In the Winter of 2014-15
and into Spring 2015 they made some house
improvements so that work would be done before they
had a child.
54. Mr. Dasler did some interior painting.
55. A second story deck project was undertaken,
that included demolishing an existing deck, constructing
a new one, changes to an entrance door, and ancillary
work, including work on some of the home’s siding.
(SeeTr. Ex. 5)
56. Mr. Dasler and Ms. Dasler’s father and uncle
demolished the old deck.
57. A hired contractor did some rot repair, laid
new deck footings, and installed the framing (including
deck posts) for the new deck. The contractor was paid
from Ms. Dasler’s earnings.

App.24a
58. Mr. Dasler laid the deck surface and railings,
and worked on the new entrance area and some of the
siding work.
59. The deck was done by summer 2016. The court
cannot determine to what extent it may have increased
the fair market value of Marital Home.
60. Other 2012-2015 home maintenance/impro­
vement projects included: Spring 2013 stripping,
sanding and refinishing siding on the west side of the
house (Parties performed labor); similar work on the
south side of the house; sanding and re-finishing of
first story’s hardwood floors (labor performed by
Parties and Ms. Dasler’s parents).
61. The house siding work was normal and
regular maintenance needed for the type of wood siding
that was installed on the Marital Home when the
Parties decided to purchase it in 2012. To the extent
the siding and floors were not in pristine condition in
September 2012 at the time of such purchase, the short
sale $170,000 purchase price and $200,000 appraised
value (Tr. Exs. 1 and 2) presumably reflected the
home’s condition.
August 2015 Birth of Tenley and Early Period (to May
2017)
62. As noted Tenley was born in August 2015.
Mr. Dasler was working at Ellis Music three days a
week. Ms. Dasler was on maternity leave from August
to November 2015 and provided the primary care for
Tenley when Mr. Dasler worked at Ellis Music or
worked in his home shop on Thursdays and Fridays.
63. Tenley attended a daycare in West Fairlee, VT
from November 2015 to February 2016 five weekdays

App.25a
per week (8:30 am to 5:00 or 5:30 pm). Ms. Dasler did
the bulk of the transport to and from the day care pro­
vider.
64. Transporting Tenley to and from the day care
was a source of friction. Ms. Dasler wanted assistance,
especially on the days Mr. Dasler was not working at
Ellis. He felt the center was close enough to Ms.
Dasler’s commuting path to and from work so she
should do the pickups and drop offs. Mr. Dasler agreed
to do some of the Thursday and Friday morning drop
offs, but was inconsistent.
65. Ms. Dasler did some evening computer work,
from home, for her Ibex job. She would do that work
after Tenley was in bed for the night, with possible
rare to uncommon exceptions if a deadline loomed.
66. Ms. Dasler had to work an occasional weekend
day but if so, she got “comp time” to take corresponding
time off during the weekdays.
67. Ms. Dasler’s Ibex job also required occasional
weekend or evening work and travel.
68. In 2015 Ms. Dasler had no overnight work
travel after Tenley was born (Tr.Ex.6). She was on
family leave until November of that year.
69. In 2016 Ms. Dasler had 27 nights of overnight
work travel (an average of 2 per month). Ms. Dasler’s
mother provided day or overnight care of Tenley for
nine of those 27 days. .(.Id)
70. In 2017, presumably up to the separation (or
certainly Ms. Dasler’s November 2017 Ibex lay off),
she had 10 nights of overnight work travel, The
grandmother provided care for three of those days or
nights. In this same period Mr. Dasler spent a week in

App.26a
South Carolina and Ms. Dasler was responsible for
Tenley’s care. (Id.)
71. Mr. Dasler’s 10 hour shifts at Ellis Music and
responsibilities there, meant he worked portions of
evenings after Ms. Dasler got home from work and
had picked up Tenley.
72. As to household chores, Ms. Dasler did the
bulk of the shopping and cleaning, although Mr. Dasler
did shopping and meal preparation on Thursdays and
Fridays. Ms. Dasler did the laundry and housecleaning
was shared. Mr. Dasler was on trash duty. At one point
after Tenley was born and Ms. Dasler returned to work,
a bousecleaner was hired.
73. On or around March 23, 2017, Mr. Dasler quit
his Ellis Music job. (see further description below)
74. The voluntary quit promptly became a source
of friction for the Parties. The Daslers were already
watching their money, even though they collectively
earned about $100,000 a year at the time. (See Tr. Ex.
4, 2016 returns). The job quit reduced their household
income by about 35% overnight. (Id.)
75. Ms. Dasler urged Mr. Dasler to promptly find
another job.
76. Following Mr. Dasler’s March 2017 quitting
of his job, Tenley remained in day care and Ms. Dasler
was providing the bulk of the day care transportation.
77. Marital tensions became high. The frequency
of mutual arguments increased.
May 12, 2017 Incident and Parties’ Separation
78. On May 12, 2017 the Parties argued over who
would take Tenley to day care. Ms. Dasler and Tenley

App.27a
were seated in the eating area having breakfast. They
were seated next to an approximately 3’ X 5’-to-6’sized table with a granite table top and wooden legs
and frame. (Tr. Ex. 5).
79. Mr. Dasler stated his desire or need to get
away by himself, and Ms. Dasler agreed.
80. An argument again ensued, and Mr. Dasler
twice lifted the heavy table top from the long end,
tilting it toward Ms. Dasler and the child, and slammed
the table down. (Tr. 5, seepp. 2 and 3)
81. Tenley became very upset. Ms. Dasler angrily
told Mr. Dasler he should leave and took Tenley
upstairs to a bedroom.
82. Mr. Dasler followed Ms. Dasler upstairs, took
Tenley from Ms. Dasler and when asked where he was
going with her, reported he would take her to the day
care.
83. Ms. Dasler said she would do so, and Mr.
Dasler then stated he would take Tenley for a walk
and left the home with her.
84. After Mr. Dasler returned to the home, Ms.
Dasler took Tenley to the day care. While ruminating
on the situation, she called her mother and Safeline.
The marital tensions were escalating, and she decided
to leave work early to pick up Tenley. Mr. Dasler had
an angry outburst in front of the child and was stating
he needed a break.
85. Ms. Dasler called Mr. Dasler and eventually
reached him. Mr. Dasler stated he had already picked
Tenley up and was going to take her camping. Ms.
Dasler objected and asked where Mr. Dasler and Tenley
were and he at first refused to tell her.

App.28a
86. He then told her he was at Groton State Park
(about a 90 minute drive from the Dasler home).
87. Shortly after that call Mr. Dasler and Tenley
retuned home. Ms. Dasler confronted Mr. Dasler about
the untrue information about his whereabouts and he
stated he still wanted to take Tenley camping. It was
near Tenley’s bed time, and Ms. Dasler suggested he
take the camping trip without the child so the child’s
routine would not be disrupted.
88. Mr. Dasler persisted, stating his firm plans
and intent to take Tenley. Ms. Dasler persisted in her
position and said she would take Tenley for a walk to
the nearby park while Mr. Dasler packed things to go
camping by himself.
89. Mr. Dasler followed Ms. Dasler and Tenley to
the park. The argument over whether Tenley would go
camping or stay at home became more angrjr and
heated. Mr. Dasler tried to physically pick up and take
Tenley and Ms. Dasler resisted by placing herself
between the child and father.
90. In the argument, Mr. Dasler, who was angry
and swearing, grabbed Ms. Dasler by the arms and
threw her to the ground, but left without Tenley.
91. The police were called and investigated,
speaking to both Parties. Mr. Dasler was arrested,
and eventually charged with domestic assault, which
charge is currently pending.
92. The 5/12/17 incident occurred early that
Friday evening. On Monday 5/15/17 Ms. Dasler applied
for and received a temporary, and later final, relief
from abuse (RFA) order.

App.29a
93. The RFA order and criminal conditions of
release resulted in Mr. Dasler being required to vacate
the home and limited the Parties’ contact as to this
action and certain PCC visitation for Tenley. Those
events started the Parties’ separation.
94. This action was filed 6/13/17.
95. By 6/20/17 a fourth amended extended tem­
porary order was filed in the RFA action (Tr. Ex. 7)
that included a stipulated interim PCC schedule.
96. Mr. Dasler was to get two visits a week for two
hours at the Upper Valley Aquatic Center or the
Montshire Museum. The visits were unsupervised, but
he was not to leave those premises. (Id.)
97. Mr. Dasler was also to “obtain anger
management evaluation through HCRS and follow all
recommendations by the evaluator”. (Id.)
98. As to PCC the interim stipulated order con­
tained the Parties’ agreement and acknowledgment
that “they do not expect or contemplate that contact
between Timothy and Tenley will continue on the
schedule currently agreed herein, and that they will
work to normalize that contact as this matter pro­
gresses”. (Tr. Ex. 7).
99. The interim PCC order allowed the Parties
to have phone, electronic and third party contact and
communications. (Tr. Ex. 7)
100. For a variety of factors, discussed below,
such “normalize[ation]” did not occur.
101. Although voluntary increased temporary
visitation for Mr. Dasler did not occur, and the issues
noted below arose, the Parties generally abided by the

App.30a
temporary PCC schedule. While the limited visitation
under the temporary PCC order was available, Mr.
Dasler used it. Some visits were cancelled due to inclem­
ent weather and/or Tenley’s interim illnesses, and rea­
sonable make up time offered. Some requests of Mr.
Dasler to shift his days were accommodated. (See Tr.
Ex. 8)
102. The fact the Parties have reasonably accom­
modated each other on visitation issues is reflected by
the fact the Parties have agreed to a 50/50 visitation
order, and in essence stipulated to the PRR-PCC order
details except who will hold PRR, holiday and vacation
scheduling, and certain visitation pickup/drop off
details. See “Partial Proposed Order” Agreement on
PRR-PCC, submitted on 7/23/18.
103. Certain issues recur in the Parties’ efforts
to co-parent to date that may impact the PRR decision.
The court notes that the entire time period during
which the Parties have attempted separate/ parallel
parenting, they have operated under the RFA Order
and the pendency of the domestic assault charge and
associated conditions of release. While the pre 5/12/17
martial relations were strained and the marriage might
not have survived, it was catapulted onto the divorce
action path in a sudden and precipitous way with no
pre-planning by the Parties how they might co-parent
Tenley following their separation.
104. A reoccurring theme is Ms. Dasler’s fear of
Mr. Dasler’s anger and/or violence (or edge-of-violence)
outbursts and Mr. Dasler’s fear that Ms. Dasler
unreasonably viewing him in such terms and seeking
to use each encounter to “gather the goods” on him to

App.31a
accumulate data for more favorable PRR-PCC treat­
ment. These themes and factors are shown, and
explained in part, in several ways:
a. Interim Temporary PCC Order Proceedings
105. Between July 2017 and 2/28/18, Ms. Dasler
filed five sets of motions (seven in all) (MPR’s 5, 7, 8,
9, 11, 15 and 16 as listed on the court docket), seeking
to suspend and modify Mr. Dasler’s visitation. See
7/20/17 Order to Suspend Visitation; 12/6/16 motion
and emergency motion to modify visitation; 12/12/17
motion to reconsider decision on motion to modify
PCC; 1/2/18 renewed motion to modify PCC; 2/28/18
regular and emergency motions to correct and recon­
sider order on motion to modify PCC).
106. The court held proceedings on these matters
and is not utilizing its fact findings from those hear­
ings.! The topics of concern in those proceedings
included issues as to a Montshire Museum fall by a
museum display area; use of the Aquatic Center
stairway; outside clothing choices in winter; Facetime
use and alleged comments by Mr. Dasler; video
recording of Ms. Dasler, and other concerns.
107. During this time period, Mr. Dasler contested
both Ms. Dasler’s descriptions of the 5/12/17 incidents'
(that led to the RFA and domestic assault charges),

1 In In re T G, the Vermont Supreme Court stated that “[t]he
existence of a prior order is an appropriate subject of judicial
notice/’ 2007 VT 115, H 16, 182 Vt. 467. However, the findings of
fact underlying the order’s findings are not appropriate subjects
of judicial notice. Id. 17 (noting that the trial court “did not err
in declining to rely on the findings contained therein.”).

App.32a
and the legitimacy other professed fear of further mis­
behavior by him.
108. Mr. Dasler started to record (video and audio)
the PCC transfers on his phone. This allowed him to
document aspects of the exchanges (while the recorder
was on), and thus avoid any false charges of improper
behavior by him (if false accusations were ever to be
made).
109. His recording had an immediate negative
impact on Ms. Dasler. The taping reflected active
distrust of her and a need to record and monitor her
behavior. The practice exacerbated the Parties’ chal­
lenges in improving their co-parenting relationship,
which was already fraught with distrust and fear.
110. As part of the interim PCC motions and
orders, on 2/23/18 both Parties were ordered to stop
taping each other. Mr. Dasler has taped Ms. Dasler a
few times since that order was entered.
b. Mr. Dasler anger management, counselling
and mental-emotional state
111. Mr. Dasler at one point expressed his desire
to have any assessment of his mental-emotional con­
dition to be a forensic assessment for wider use in these
proceedings. That did not happen and by 8/1/17 an
order was entered that he compete anger management
screening within 30 days and engage in recommended
treatment.
112. It turned out the HCRS entity recited in the
Order did not do anger management screening assess­
ments. Persons at the Clara Martin Center did perform
such services, including screenings and assessments
over the phone.

App.33a
113. Mr. Dasler completed such an assessment in
late July, 2017. Records of that assessment (to the
extent they exist) were not submitted at the hearing.
It appears they may exist but were not subpoenaed or
sought before the hearing by discovery.
114. The assessment/screen noted that if Mr.
Dasler is convicted of domestic assault, he will need to
complete a batterers’ intervention report. The screening
recommended counseling for depression and stress
relating to the divorce and separation and related
matters.
115. Mr. Dasler then started to see Judith Bush
for such counselling. He has seen her with reasonable
regularity, although the frequency of their visits has
reduced and scheduling is more complicated (perhaps
because of Mr. Dasler’s employment and Tenley care
commitments).
c. Ms. Dasler’s mental-emotional condition
116. Ms. Dasler has had some prior significant
mental-emotional condition episodes. In 2005 she
consumed an excess of sleeping pills, as the Parties
were discussing a hiatus in their relationship and Mr.
Dasler was getting ready to vacate or leave the
apartment and the Parties were in a stressful period.
117. In 2013, Ms. Dasler had a conflict with her
parents and made ambiguous comments of self harm
and abruptly exited a car in traffic while upset. She
was treated at the hospital.
118. Ms. Dasler’s mental-emotional condition has
been stable and there is no indication that she requires
treatment at this time. She has maintained full time
employment, cared for Tenley. Mr. Dasler never raised

App.34a
an issue as to her present mental-emotional fitness to
parent her daughter during the temporary PRR-PCC
proceedings in this case
119. The court accepts Mr. Dasler’s testimony
that Ms. Dasler can get upset and insistent at times
when she is mad at him. However she is able to stay
on task to resolve and discuss issues.
120. The prior few incidents requiring medical
assessment or care have left Mr. Dasler apprehensive
that Ms. Dasler might react strongly during stressful
interactions.
d. The Dalene Washburn counselling and Spring
2018 email communications
121. Since the separation Ms. Dasler started to
take Tenley to Dalene Washburn for counselling
services. Ms. Washburn is an experienced child and
family therapist.
122. Ms. Washburn has provided counselling
services for Tenley and eventually had alternating
weekly sessions where each parent attends the
counselling session with Tenley.
123. Starting 2/23/18, the court imposed a revised
temporary PCC order that allows for 50/50 unsuper­
vised PCC by the parents. It has default visitation
scheduling and drop off/pick up details but has
necessitated a new level of PCC-related communi­
cations among the Parties while this action is pending.
After this order was issued, Mr. Dasler started to
bring Tenley in for Washburn sessions on his visita­
tion weeks.

App.35a
124. The abrupt initiation of the revised interim
order’s PCC schedule created sleep disruption for
Tenley. Both parents noted it as of a concern to Ms.
Washburn.
125. Starting in or around February 2018 Ms.
Washburn suggested the Parties keep a paper format
parenting journal to improve communication. Ms.
Dasler preferred and suggested an electronic “journal”,
Mr. Dasler did not want to use an electronic format.
Mr. Dasler did not feel he had a sufficient level of
“trust”, according to Ms. Washburn, to use an electronic
journal. Yet such a communication mode, like e-mail
or written communications, is “transparent” in that it
records the communications that are exchanged.
Eventually a journal was not used, but the Parties had
frequent e-mail communications.
126. Starting in February 2018 Mr. Dasler started
to blind copy Ms. Washburn on Mr. Dasler’s communi­
cations with Ms. Dasler. He did not discuss that with
Ms. Washburn and she did not request the blind
copies.
127. In the course of these proceedings Ms.
Dasler learned of this bhnd copying and a trial exhibit
of such email and Mr. Dasler’s side emails to Ms.
Washburn was admitted. (Tr. Ex. l).
128. The discovery of these private, “non-trans­
parent” blind copy and third party (as to Ms. Dasler)
communications by Mr. Dasler has been of concern to
Ms. Dasler. On one hand, the practice reflects an ongoing
lack of trust of Mr. Dasler in Ms. Dasler. It creates an
impression that Mr. Dasler may be seeking to use Ms.
Washburn’s assistance to figure out how to react to Ms.
Dasler (using the neutral family therapist providing

App.36a
care to Tenley) without Ms. Dasler’s knowledge or
consent.
129. The private emails to Ms. Washburn also
reflect Mr. Dasler’s overly self-protective caution in
his willingness to start to discuss parenting matters
with Ms. Dasler in an open way. The use of email to
make these direct communications allows the partyto-party communications to be “transparent” (that is
captured and reproducible).
130. Ms. Washburn responded if and when
necessaiy and kept neutral. Mr. Dasler expressed con­
cerns over the wanting to talk to the pediatrician or
the pediatrician not understanding or receiving his
perspective2. She told him he might contact the doctor
and set up an appointment if he wished.
131. Mr. Dasler at one point (April 2018), after
receiving Ms. Dasler’s 2.5 year Tenley well care doctor
visit report, forwarded the email to Ms. Washburn
with a side email. Mr. Dasler expressed privately to
Ms. Washburn that he was not adequately consulted
about certain doctor visits and his view that changes
in the rate of Tenley’s growth/weight percentiles since
the separation were attributable to his limited post­
separation care giving of Tenley. Ms. Washburn was
not concerned as children’s normal weight gain trends
can vary and the child was receiving pediatric care.
132. In another April 2018 exchange, Mr. Dasler
expressed frustrations in Ms. Dasler’s requests and
2 In a 2/26/18 letter to the court, the pediatrician group expressed
visitation views stating that in view of Mr. Dasler’s past failure
to ensure a safe environment for Tenley his home should he
reviewed, by a GAL for a childproofing safety check. Tr. Ex. 30,
page 41)

App.37a

exchanges as the Parties discussed a possible PCC
modification to accommodate Ms. Dasler’s request to
have Tenley on her birthday and Mr. Dasler’s summer
vacation plans. There was no testimony as to whether
Ms. Washburn responded to the e-mail verbally. She
has tried to stay out of details as to the merits of
Parties’ disagreements and focus on being flexible and
use more communication.
133. In a May, 2018 email, Mr. Dasler informed
Ms. Washburn of post-visit statements by Tenley about
play conduct (locking dolls in closets; and alleged
negative statements by the paternal grandfather that
Mr. Dasler is “bad” and needs to “go away in the
woods”). He asked Ms. Washburn to take the issues up
with Ms. Dasler.
134. Another May 2018 exchange had to do with
signing Tenley up for preschool. Ms. Dasler sent Mr.
Dasler considerable information and asked for input
as to any “questions, concerns or additions” (Tr. Ex. 1,
page 17). Mr. Dasler responded that the half or full
day attendance issue needed discussion, and that he
wanted to get more information about some details as
to the program. Mr. Dasler then sent Ms. Washburn’s
private emails, critiquing the application as filed. In
this email he recognized “it would be better if Jen and
I could have this sort of communication”. He referred
implicitly to his past mistrust of Ms. Dasler and stated
he did not want to “make waves” by trying to discuss
the issues with Ms. Dasler directly.
135. Ms. Washburn told Mr. Dasler she would not
respond to the long emails. Ms. Washburn did not notice
that the long emails were not copied to Ms. Dasler.
The print outs of these emails (party-to-party and side
ones to Ms. Dasler, for an approximately three month

App.38a
period (2/27/18 to 6/3/18), is a 52 page single space,
small font document. (Tr. Ex. l). As Ms. Washburn
states she does not have the time to do “therapy by
email”. Nor is it the manner in which she provides
services.
136. The court finds as to these side Washburn
emails, and underlying party-to-party contacts while
the practice was ill advised, the content of the side
communications is more benign.
137. As to the party-to-party PCC-related com­
munications, the emails generally show cordial and
improving communications. Mr. Dasler confirmed to
Ms. Washburn that since February 2018 the tone
nature of the communications has improved.
138. The Parties’ other emails (Tr. Ex. 9) generally
show the same.
139. The court finds although Mr. Dasler’s deci­
sions in how to communicate with Ms. Washburn was
detrimental to fostering improved parental communi­
cations, at heart he was trying to find ways to better
co-parent with Ms. Dasler, rather than create court doc­
umentation to enhance his htigation position. He did
not call Ms. Washburn as a witness nor seek to
introduce the emails at hearing. His emails to Ms.
Washburn reflect some frustration, not with Ms.
Dasler’s positions per se, but the inability to reach
more effective communications about parenting
matters.
140. The emails (Tr. Exs. 1 and 9) show, at least
in that communication mode, respectful and on point
communications by Ms. Dasler. She testified that
after the 2/23/18 opinion and change of counsel she
has tried to focus on the long term and improve her

App.39a
communications with Mr. Dasler. Rather than fearing
the worse she states she is trying to focus on doing
parallel parenting with Mr. Dasler. This statement of
her intentions appears genuine.
Current PCC Status
141. Both parents are appropriate and loving when
they spend time with Tenley. She is receiving ageappropriate therapy from Ms. Washburn as to any past
domestic violence and parental conflict she experienced
and each parent is committed and supportive to her
receiving such treatment.
142. Ms. Washburn does not recommend that
PCC be other than on a 50/50 basis and as the court
noted the Parties proposes a 50/50 PCC order.
143. Both parents have an appropriate safe home
for Tenley and can meet her reasonable needs. Ms.
Dasler continues to reside in the Marital Home. Mr.
Dasler has a two bedroom apartment. One bedroom
serves as his luthier shop. The second bedroom is his
bedroom, but when Tenley stays with him, he can sleep
in a bed in the living room. He has maintained stable
housing, since the separation.
Finances & Property/Debt Post-Tenley’s
(August 2015) Through Present

Birth

144. After Tenley was born, the Parties continued
the same individual and joint account family finances
approach discussed above. The shared household
expenses were paid 50/50 using the joint account
described above. The Parties also maintained their
own individual accounts.

App.40a
145. As the couple started to incur day care
expenses for Tenley, Ms. Dasler paid those expenses
from sums in her personal account.
146. As Tenley was born, Mr. Dasler was working
for Ellis Music Mondays. Tuesdays and Wednesdays (10
hour shifts), with Thursdays and Fridays off when he
worked in his home shop. As Ms. Dasler returned to
work in November 2015, she wanted Mr. Dasler to
either work full time at Ellis Music (as was offered to
him) OR care for Tenley on Thursdays and Fridays.
This would allow more household income to pay for 5
day/week child care or limit that expense to three days
a week if Mr. Dasler was bringing in limited income.
147. Mr. Dasler had an outstanding offer for full
time employment in essence throughout his employ­
ment with the company (Testimony of David Ellis).
148. Mr. Dasler declined to do either, and Ms.
Dasler arranged day care and paid for the day care
expense.
149. When Ms. Dasler made her requests for Mr.
Dasler to either return to full time work or provide
child care on Thursdays and Fridays, she estimated
the expense was costing them at least $300 per month.
Including the Thursday and Friday care, in 2016 the
Parties spent $11,500 on child care. (Tr. Ex. 4, 2016
Tax Return, Schedule 2441).
150. During the five year period from 2012 through
2016, Mr. Dasler reported no Schedule C or other
income from any self employment activities as a luthier
or instrument designer/ builder/repairs. Although he
may have improved his skills in that period, the court

App.41a
finds Mr. Dasler earned no income from self employ­
ment over his costs of materials, supplies or equip­
ment devoted to such activities.
151. During that period Mr. Dasler was employed
by Ellis Music 30 hours a week the Parties had earned
income (Ibex earnings for Ms. Dasler) as follows:
2013

2014

2015

2016

$62,072

$68,419

$71,078

Mr. Dasler $35,2333 $35,409

$31,504

$34,966

Total
Wages

$99,924

$102,878

Ms. Dasler $52,442
$87,675

$97,482

152. Since the separation Ms. Dasler has paid all
expenses associated with the Marital Home. She has
also had occupancy and use of the home
153. As to debt and personal property for Ms.
Dasler, she has (besides the Marital Home Mortgage
debt described below), and a $25,460 loan to her parents
on which she pays $250 per month, and $2471 in
credit card debt she is paying off at the rate of
$240/month. (Tr. Ex. 31, 813B Affidavit) She has no
other long term debt other than a car loan. She has a
Fidelity IRS in the amount of $14,478 and an Ibex
Fidelity 40l(k) account of $14,817, (Tr. Ex. 31. 813B
Affidavit at page 7 of 7).
154. Ms. Dasler as of 6/9/18 had four bank accounts
with a balance totaling about $5,209. (Id.)

3 Inferred from 20013 1040 Form wages minus Ms. Dasler’s Ibex
W-s earnings. Tr. Ex. 4

App.42a
155. As to personal property and debt for Mr.
Dasler has [l] $11,062 in general debts ($1662 medical
and $9400 to family) that he is not currently making
payments on; [2] $14,382 in credit card debt (on which
he is paying $407/month); and [3] a $15,230 USAA loan
and a $10,000 Prosper loan for which he is making
monthly payments totaling $511 (Tr. Ex. 21).
156. Mr. Dasler has a $6,640 Johnson String
Instrument 40l(k) account (Tr. Ex. 16) and a Wells
Fargo IRA account of $13,985 (Tr. Ex. 17). See also Tr.
Ex. 21, 813B affidavit at its page 7 of 7. Mr. Dasler has
minimal bank accounts.
157. Mr. Dasler’s $15,230 USAA loan is a loan
advance he obtained on or about 8/14/17 (See Tr. Ex.
24, at page 34; 6/122/18 Mr. Dasler Testimony), and
the Prosper Loan (early 2018) was acquired during the
divorce (6/12/18 Mr. Dasler testimony). He used those
loan proceeds in large part to cover legal fees, moving
expenses and other living expenses.
158. Mr. Dasler liquidated a $13,076 pension
account (obtained via an inheritance) in or around
6/24/17, not shown on his later 813B Affidavits, and
used the funds after paying tax withholding and any
early withdrawal penalties. (See Tr. Ex. 24, page 38,
6/26/17 entry and Tr. Ex, 18, Form 1040 line 16a; Tr.
Ex. 21, 813B Affidavit at page 2 of 7, bottom of page.
159. According to the Parties’ 813B Affidavits as
to motor vehicles, Ms. Dasler has a 2010 Subaru Legacy
with an estimated $5,471 value and.$3,568 debt4. Mr.
4 Mr. Dasler assigns a $10,000 fair market value to this vehicle
and lists it as having no debt. As noted during the marriage each
party paid his or her own car expenses from their individual bank
accounts and the court accepts Ms. Dasler assertion there is a

App.43a
Dasler has Subaru Impreza with an estimated value
of $4,000 in debt against it (Mr. Dasler 6/12/18
testimony). Ms. Dasler had a RAV4 vehicle which the
court finds has minimal value to the extent it has not
yet been junked or sold for any residual value. It
appears it was traded in as Mr. Dasler obtained the
current vehicle he is using.
160. A considerable bit of evidence was directed
to the valuation of Mr. Dasler’s physical business
assets—the specialized wood, tools, and instruments
and accessories he maintains. These collectively have
significant value.
161. The court accepts the $876 value for the
wood (Tr. Ex. 32) that Mr. Dasler assigned to the wood.
Admittedly some of it will be hard to use properly as the
wood storage/inventory system Mr. Dasler used to
store and catalog it was disturbed when the wood was
assembled and moved.
162. Mr. Dasler just before trial valued his tools
at $4,350 (Tr. Ex. 23). The court uses that figure.
163. As to the instruments, Mr. Dasler also
assigned values—Tr. Ex.22, which the court totals as
$43,660. Included in this figure were three prized
handmade violins, constituting $20,000 of that value.
loan against the car. The court also accepts her valuation of the
vehicle, and notes the difference(s) in the court valuation of that
vehicle has no appreciable weight in the property division and
maintenance awards. The court is simply letting each party keep
the vehicle in their possession that they are using, and to pay all
debt associated with it. The court is not scrutinizing the Parties
car choice decisions (which appear reasonable) and suggesting
either one should be forced to sell their vehicle and buy a cheap
used car to minimize their monthly expenses.

App,44a
See Tr. Exs. 22 and 28 (last page) (Timothy Dasler
Violins)5.
164. As Mr. Dasler testified the $20,000 custom
violin values are the full retail sale value for the
custom instruments, and difficult to obtain at any
point in time. Indeed his musical instrument inventory
is not an asset that is readily liquidated for its full
(potential) retail market price. In reality, many
custom instruments sell at a considerable discount
from their highest “full” fair market value. The fact
Mr. Dasler is an aspiring luthier (as to reputation, not
necessarily skills), and he has not been able to
regularly sell his custom violins during the marriage,
the court adjusts the musical instrument figure from
$43,660 to $33,660 for personal property valuation
purposes.
165. In making a personal property award, the
Parties essentially agree what personal property each
one will gets, but they have different valuations as to
some of the items, that they ask the court to consider
in making its award. The differing valuations of Mr.

5 As Mr. Dasler described in his testimony, many or all of the
violins depicted in pages 1 and 2 of Tr. Ex. 28 are in essence
consignment instruments available to him. The court accepts his
Tr. Ex. 22 list of instruments as accurate as to its contents
identifying the instruments he owns and which would be part of
the marital estate.
6 At least three rounds of personal property drop offs to Mr.
Dasler have occurred since the RFA Order was issued and the
Parties have a good understanding of just what personal proper­
ty items each has in their possession or are possessed by the
other Party.

App.45a
Dasler’s wood, tools and accessories and musical
instruments are discussed above.
166. In making its personal property award the
court is considering the fact Ms. Dasler will be awarded
other personal property whose collective value
significantly exceeds the value of Mr. Dasler’s luthierrelated property.
167. The court accepts the figures of $3,600 in
jewelry to be awarded to Mr. Dasler and $5,800 for Ms.
Dasler (to include the engagement and wedding ring).
Besides the tools Mr. Dasler will retain, Ms. Dasler is
receiving tools with a value of about $1,925 (Tr.Ex.31.
813B affidavit at page 4). The Parties may dispute the
value of electronics and computers Ms. Dasler will
retain, but she values them at $1017 (Id.)
168. Ms. Dasler will have ownership of the Marital
Home appliances, which Mr. Dasler values at $2,200
as they are in good condition and purchased relatively
recently. The court uses a $1,500 value for the major
appliances. Ms. Dasler will get the bulk of the home
furnishings, which Mr. Dasler values at $6,300 and
Ms. Dasler at $2,000, and which the court believes has
a value in between the two figures, but closer to Mr.
Dasler’s figure.
169. Ms. Dasler introduced an exhibit with a
lengthy list of personal property that is part of the
marital estate, that the Parties ask to award them,
showing agreed to and contested items (Tr. Ex. 32).
Mr. Dasler also prepared a list as to personal property
items and values. The court has reviewed and
considered, these exhibits.
170. Personal property division is not an exact
science,. and the court notes that as Mr. Dasler was

App.46a
required to precipitously vacate the Marital Home—
he was left with extra expenses in outfitting his
apartment for his occupancy, while Ms. Dasler retained
many of the tangible household property associated
with living in the Marital Home (furniture; lawn
equipment; home-related tools, etc.).
171. The court finds that Mr. Dasler’s need to
pay his relocation-related expenses, required him to
take on some of the loan and/or liquidate his inheritance
IRA during the separation while this matter was
pending.
172. Mr. Dasler’s reasonable and needed legal
expenses since separation have included not only
counsel for this matter, but for the pending criminal
domestic assault charge.
Marital Home
173. The Marital Home, as of May 2017, had a
mortgage loan balance of $146,361. (Tr. Ex. 13). Prop­
erty is valued for property division purposes as of the
date of the final order, not separation.
174. The mortgage statement (Tr. Ex. 13), shows
principal is being paid down on the loan at the monthly
rate of $297/month as of May 2017. Adjusting the loan
balance after the June 2017—July 2018 payments were
made (14 payments), the court finds the current loan
balance to be about $142,220. Ms. Dasler lists a 6/9/18
loan balance of $143 031 in her $13B Affidavit of such
date (Tr. Ex. 31), page 3 of 7, and the court accepts
that value.
175. The Marital Home was appraised as of 5/31/18
with a fair market value of $224.000. (Tr. Ex. G). The
court accepts that figure as the home’s present fair

App.47a
market value. This provides a figure of $80.968 in
equity in the home.
176. Although Ms. Dasler testified that the Note
used to purchase the Marital Home was issued solely
in her name, the 2012 Warranty Deed lists both Parties
on the record title. (See exhibits to Tr. Ex. G).
Parties’ Current Income and Living Expenses
177. Ms. Dasler works for Cabot Hosiery with a
salary of $80,000 per year. She receives health insur­
ance and is now eligible for dental insurance. The com­
pany has a 40 IK plan, which will allow for a 50%
employer match (to an unstated percentage of salary)
against an employee’s voluntary contributions. She is
not currently enrolled in the plan. The company does
award discretionary bonuses, which are not consi­
dered in her 813 Affidavits.
178. Ms. Dasler at present grosses $6661/month
and has average tax and FICA withholdings (not
included in her expense discussion below), totaling
$2035/mo (Tr. Ex. 31), leaving her net monthly income
of $5,626/month (before the discretionary bonuses she
may receive from Cabot Hosiery).
179. Based on Ms. Dasler’s discussions with her
employer as she was hired, it is likely that Ms. Dasler
will soon.be earning $90,000 a year ($7;500/mo.) in
salary and discretionary bonuses.
180. If and as Ms. Dasler is earning an extra
$10,000 per year, she will lose about 30% of that gross
to taxes s and withholdings, and would have an addi­
tional net monthly net increase in income of $583/
monthrThis would bring her net-monthly income-to
$6.209/mo.

App.48a
181. Ms. Dasler’s claimed monthly living expenses
are described in detail on Tr. Ex. 31, her 6/6/18 813A
Affidavit pages 7-11, and are not fully recited here in
detail. The expenses are accepted except as noted here.
182. Ms. Dasler’s claimed vet and pet bills of
$230/mo ($2,760/year) were not explained or supported
and appear excessive. The court uses a $ 100/month
figure. Although Ms. Dasler claims $ 100/month of
expenses for savings, she has over $5000 in her bank
accounts, and the court does not use the $ 100/month
for savings as part of her reasonable expenses for
maintenance purposes.
183. Ms. Dasler claims $801 as personal expenses,
in addition to claimed expenses for uninsured medical
expenses, clothing/ meals/snacks eaten out, hair care,
magazines/newspapers, entertainment, gifts, charitable
deductions, vacations, and her loan to parents. The
court adjusts this to $250/mo. for maintenance deter­
mination purposes.
184. Ms. Dasler claims $ 125/month for diapers,
which expense should not be needed but for a short
time, going forward, as Tenley is now almost three
years old. Ms. Dasler claims $ 1,300/month in child
care expenses, and no longer receives the child care
reimbursement that she received while employed by
Ibex. However, with the Parties splitting PCC 50/50,
Ms. Dasler’s child care expenses will significantly drop
and the court uses $650/month for maintenance pur­
poses.
185. With these adjustments* for maintenance
purposes Ms. Dasler’s monthly expense would total
$5.803/month.
.

App.49a
186. Mr. Dasler works as a carpenter for the
construction company Home Partners. He makes
$ 18/hour and still pursues his side luthier business as
he can.
187. Using Mr. Dasler’s recent 813A affidavit
(Tr. Ex. 21 at page 2), he makes $33,564 per year and
averages 36 hours per week.
188. He estimates he will make $840/year ($70/
month) from self employment. {Id)
189. In 2017 Mr. Dasler was not employed for
about four months between quitting at Ellis Music in
March and starting at Home Partners in August 2017.
During 2017 he bought and resold some violins, and
perhaps earned limited other luthier work income,
and did some instrument repairs. He reported $8,876
in 2017 gross income ($740/mo) from the sale, and
reported $2,869 ($240/month) in 2017 net taxable
income after expenses that included $2,435 in
deductible car and truck expenses and $840 in home
office expense deductions (Tr. Ex. 18 Schedule C).
190. Mr. Dasler thus has average monthly
income of $ 2,867/month if his conservative Section
813 Affidavit self employment earning figure is used
($70/month), and $3,036/month is his 2017 taxable
tax-reported self earnings ($240/mo) are used. Mr.
Dasler in his new apartment maintains a luthier shop,
and can serve as a distributor for music program bulk
instrument sales as he did in 2017. He still keeps a
bedroom devoted to his side business. The court uses
the midpoint for his inferred self employment earnings,
leaving $2,951/month as his estimated gross annual
earnings.

App.50a
191. Mr. Dasler’s 813A Affidaivt (Tr. Ex, 21, at
page 9), as supported by his Home Partners pay stubs
(Tr. Ex. N), show that he pays about $388/month in
state and federal wage withholdings. This leaves about
$2.613/month in net earnings.
192. As to the school musical instruments sold in
a bulk purchase and sale during the divorce, the
Parties disputed if the instruments were part of the
marital estate that in effect was liquidated. The court
accepts Mr. Dasler’s testimony that he used funds to
acquire them as inventory after the separation and then
sold them. His 2017 Schedule C shows $12,998 in costs
of goods sold. His 2017 credit card statements (Tr. Ex.
25, at page 4, show a nearly identical sum in payments
to Howard Core Company in Fall 2017.
193. Mr. Dasler’s claimed monthly living expenses
are described in detail on Tr. Ex. 21, his 6/6/18 813A
Affidavit pages 7-11, and are not fully recited here in
detail. The expenses are accepted except as noted
here.
194. Defendant’s Orford, NH apartment rent is
$650/month, and he has $1285 in household expenses
(including groceries); vehicle expenses of $565/month.
195. The court accepts Mr. Dasler’s combined
USAA/Prosper loan and credit card debt totaling
$853/month. and allows him another $250/month in
personal expenses (Page 8 of 11 of Tr. Ex. 21)—leading
to monthly expenses of $2.953/month.
196. Mr. Dasler struggles to meet his monthly
expenses from his earnings income.

App.51a

Legal Analysis and Orders
The Parties have a young child, Tenley, who is
almost three years old. Legal residence, notice of the
proceedings, separation, and a showing that marital
relations are unlikely to resume, have been shown.
Both Parties waive the nisi period and this order shall
be final as it is docketed by the clerk. At issue are PRR
and certain PCC details, property division and Mr.
Dasler’s request for spousal maintenance.
Analysis of Factors relating to Parental Rights and
Responsibilities and Parent Child Contact
Courts apply the best interests of the child
considerations in child custody and visitation matters.
It is the best interests of the child, not the parents,
that governs the determination. Cloutier v. Blowers,
172 Vt. 450, 455 (2001). In this matter the Parties
have not agreed to sharing parental rights and
responsibilities (“PRR”). As to parent child contact
(“PCC”) the Parties have agreed to a 50/50 PCC
schedule which they ask the court to finalize as to
certain visitation details they have not been able to
resolve despite good faith negotiations.
Nine statutory factors are to be considered at a
minimum under 15 V.S.A. § 655 on PRR and PCC
matters:
(l) The relationship of the child with each parent
and the ability and disposition of each parent
to provide the child with love, affection, and
guidance;
Each parent loves Tenley, has cared for her and
engaged in appropriate activities with her. The parents

App.52a
each described with affection the things they like to do
with Tenley and understand their role in providing
input as she grows and matures.
(2) The ability and disposition of each parent to
assure that the child receives adequate food,
clothing, medical care, other material needs,
and a safe environment;
Each parent can meet the Tenley’s basic material
needs when the child is in their care—a safe home
setting, food and clothing. Both parents have stable
employment and employable skills, although Ms. Dasler
has a higher income earning capacity.
Tenley was under the primary custody of Ms.
Dasler after the May 2017 REA incident, and Mr.
Dasler only resumed equal visitation time in February
2018. Both parents have been attentive to Tenley’s
needs as her schedule was disrupted as she transitioned
to equal time in both households. Both parents have
fully engaged in the Washburn counselling services for
Tenley. Although Mr. Dasler has exchanged private
emails with Ms. Washburn concerning parenting
matters with Ms. Dasler (see factual findings above),
these deal with ongoing tensions and distrust between
the Parties as to each other. Mr. Dasler has not sought
to interfere with Ms. Washburn’s relationship with
Tenley and her provision of services to the girl. Both
parents regularly bring Tenley to those sessions during
their visitation periods.
As noted in the findings, Ms. Dasler’s prior treat­
ment for any mental—emotional condition(s) or
episodes, do not pose any current reason for concern
over her ability to safely parent Tenley.

App.53a
(3) The ability and disposition of each parent to
meet the child’s present and future develop­
mental needs;
Given Tenley’s young age, the Parties have not
fully explored schools and her formal future educational
needs. Both parents engage in age appropriate devel­
opmental activities for Tenley like reading and
spending time with her in play. This factor is in
equipoise and does not weigh in favor for either parent.
(4) The quality of the child’s adjustment to the
child’s present housing, school, and community
and the potential effect of any change;
Tenley is just turning three years of age, and has
not started school programs or any significant commu­
nity programs. Tenley will soon have to transition from
her day care to preschool and eventually kindergarten
programs. Under the interim PRR-PCC order that
was in effect until February 2018, she went from
living with both parents in the Marital Home to a nine
month period with very limited visitation with her
father. While the sudden transition from two weekly
short afternoon public place visits with her father, to
a 2-2-3 repeating pattern 50/50 PCC schedule, caused
some sleep disruption for Tenley. However, there is no
indication that she will not be able to acclimate to
spending equal times in both parents’ homes. The
Parties have agreed to use a 50/50 PCC schedule with
alternating 2 to 3 day time periods spent in each home.
This factor plays no significant role in determining
which parent will hold PRR rights.

App.54a
(5) The ability and disposition of each parent to
foster a positive relationship and frequent and
continuing contact with the other parent,
including physical contact, except where contact
will result in harm to the child or to a parent;
The parents have been mistrustful of each other
as noted elsewhere in this opinion. Ms. Dasler sought
and obtained a final relief from abuse order in her
favor, pursued rounds of motions, through February
2018, to seek to limit Mr. Dasler to supervised visits
of Tenley, citing claimed safety concerns. While the
court ultimately determined there was insufficient
evidence to require supervised visitation, the court
does not find that Ms. Dasler pursued her motions,
knowing or believing them to make false claims, or to
restrict Mr. Dasler’s visitation for reasons other than
what Ms. Dasler (who was represented by counsel)
subjectively believed to be safety concerns for Tenley.
As noted, since February, 2018, Ms. Dasler has mode­
rated her approached and tried to co-parent with Mr.
Dasler, as noted in the emails since February 2018.
As noted elsewhere, Mr. Dasler’s fear of being
accused of unsafe parenting with Tenley caused him
to be very hesitant to communicate with Ms. Dasler
over parenting/visitation issues, ad led to him recording
their exchanges.
Despite the parents’ strained communications with
each other, the court does not find that one or the
other have interacted with Tenley in ways.to undercut
her relationship with the other parent. The Parties do
not badmouth the other parent or try to enlist Tenley
to say or do things to alienate her from the other
parent. While communication of parenting issues for
the parents has been personally difficult between the

App.55a
parents), the emails show improvements in many
regards.
(6) The quality of the child’s relationship with the
primary care provider, if appropriate given the
child’s age and development;
The term “primary care provider” as used in this
factor, is not defined in the statue. The Vermont
Supreme Court has not enunciated a definitive standard
to identify the primary care provider under this factor.
Payrits v. Payrits, 171 Vt. 50, 53 (2000); Nickerson v.
Nickerson, 158 Vt. 85, 89 (1992). As the court
understands the term, the primary care provider is
the person who primarily provides for the child’s daily
care needs—morning and bedtime routines; grooming
and dental care; meal preparation; monitoring the
child’s need for breaks or rests (naps or quiet time);
providing or arranging transportation to events or
school; washing clothes; helping with dressing and
appropriate clothing selection; and daily readiness for
child care or school. Besides the mechanical provisionof-services aspect of performing these tasks, a primary
care provider does these things in the context of provid­
ing a nurturing environment. (See Nickerson, supra).
The Vermont Supreme Court has recognized that
determination of who serves as the child’s primary
care giver is not a binary either/or proposition, or one
that remains temporally fixed. First, a court need not
select one parent or the other as the primary care
giver in any period. “There can be periods of time in
which both parents are primary caregivers or in which
neither is the primary caregiver.” Hanson-Metayer v.
Hasnson-Metayer, 2013 VT 29 at para. 20. Second, all
periods of the child’s life should be considered.

App.56a
Nickerson v. Nickerson, 158 Vt. 85, 89 (1992). Third,
pre and post separation periods should be considered
and there is no per se presumption to be afforded that
the parent who has physical custody of the child at the
time of the family court hearing determining PRR
issues is the primary care provider. Nickerson, supra.
The Daslers each played a significant care giving
role for Tenley prior to the separation. Ms. Dasler took
a 12 week maternity leave when Tenley was first born.
Ms. Dasler spent considerable time attending to child
rearing activities despite her work hours, and as
between the two Parties, was more active in setting up
child care and in transporting Tenley to and from the
child care facility. Mr. Dasler was home working in his
luthier shop two weekdays per week. He helped out
with many household chores and also provided some
care of Tenley
Although the Parties contested the extent to which
they, or the other parent, provided care and transporta­
tion for Tenley, or household services, as the findings
of fact show, the court has largely credited Ms. Dasler’s
testimony over Mr. Dasler’s testimony in the areas of
conflicting descriptions. Ms. Dasler also did more of
the child rearing tasks during the May 2017—Febru­
ary 2018 period.
In PRR-PCC matters, the primary care provider
factor is given some enhanced, but not controlling,
weight compared to the other factors:
[T]his factor should be entitled to great weight
unless the primary custodian is unfit. The
exact weight cannot be determined unless
there is evidence of the likely effect of the
change of custodian on the child. In the

s

App.57a
absence of such evidence, the court should
ordinarily find that the child should remain
with the primary custodian if that parent is
fit.
Harris v. Harris, 149 Vt. 410 (1988), cited with ap­
proval, Allstyen v. Martin, 2016 WL 1824435; Mao
Cormack v. MacCormack, 2015 VT 64 at Para. 13;
Rogers v. Parrish, 2007 VT 35 Para. 19; deBeaumont
v. Goodrich, 162 Vt. 91, 101 (1994).
Here, if one looks over the lifetime of Tenley, the
court concludes Ms. Dalser has been the primary care
giver for Tenley.
(7) The relationship of the child with any other
person who may significantly affect the child;
Limited information was provided about Ms.
Dasler’s family. Her mother (Tenley’s grandmother)
has provided some back up child care, even before the
separation, when Mr. and Ms. Dasler were not avail­
able, and during some of Ms. Dasler’s business trips.
Mr. Dasler’s family is in Wisconsin and he lacks
family members in the area.
An important person in Tenley’s life at this point
is Dalene Washburn, who is providing counselling.
Both parents appear supportive of the counselling,
which will help Tenley’s emotionally and developmentally progress after any domestic violence and
parental strive and conflict she experienced.
It does not appear that the court’s choice of which
parent holds PRR will significantly impact the
maintenance of Tenley’s relationship with any extended
family member, or person who may significantly affect

App.58a
her. Tenley will spend equal time in both homes under
the 50/50 PCC to be ordered.
(8) The ability and disposition of the parents to
communicate, cooperate with each other; and
make joint decisions concerning the children
where parental rights and responsibilities are
to be shared or divided; and
Strictly speaking, where the parents do not agree
to share PRR the court must order PRR for one parent
or the other, this factor does not apply. However,
Section 665(a) lets the court consider “at least” the
nine statutory factors, and the court does not view the
topic expressed by this factor 8 as irrelevant when
PRR is granted to one parent. The ability for divorced
or separated parents to parent and provide for their
child (and for the parent who lacks formal PRR rights
to feel valued and provide some independent
perspective) is enhanced, when the parents show the
ability and disposition to consult with the other parent
and consider their impact when making child rearing
decisions. After all, despite the loss of the former
intimate and close relationship between divorced or
separated parents—each of them knows (or as
visitation increases, will come to know) the child well
and has valuable insight to provide when important
decisions are made.
Each of the parents have made some progress
under this factor, but improvements are needed. Apart
from the early stages of this divorce, many of the
Parties’ emails relating to Tenley are facially on point
and respectful in tone, and exchange legitimate
parenting information about Tenley (her schedule,
medical care, etc.)

App.59a

Ms. Dasler has lessened her anxiety and concerns
arising out of the May 2017 incidents, and is less
distrustful of Mr. Dasler. Ms. Dasler is less inclined to
scrutinize each interaction to look for some parenting
lapse by Mr. Dasler as she had done before (Compare
prior temporary PRR-PCC motions to modify and
reconsider to the more recent parent-to-parent emails).
Mr. Dasler continues to be distrustful and
defensive, to the extent that he still gingerly avoids
openly discuss parenting issues with Ms. Dasler directly
(See D. Washburn emails).
The court finds this factor slightly favors Ms.
Dasler.
(9) Evidence of abuse, as defined in section 1101
of this title, and the impact of the abuse on the
child and on the relationship between the
child and the abusing parent.
Mr. Dasler is the subject of a RFA in favor of Ms.
Dasler, issued after findings of “abuse” under Section
1101 after a contested hearing. The child witnessed
this incident at the kitchen table and the assault at
the park7. The May 2017 incidents had their own
secondary impacts on the relationship between Mr.
Dasler and Tenley. The events resulted in the interim
temporary PCC orders that limited his contact with
Tenley for about a nine month period, and resulted in
Tenley receiving services from Ms. Washburn. The
limits of visitation under the separate RFA order also
7 While the criminal domestic assault charge has not gone to trial
or a final resolution, for purposes of this divorce order the court
has made findings by a preponderance of evidence standard and
credits Ms. Dasler’s version of the May 2017 incidents.

App.60a
led to Ms. Dasler serving as Tenley’s primary care pro­
vider during that nine month period.
However the court does not believe that the May
2017 incident(s) will have long lasting impact on
Tenley—if the parents can communicate respectfully
and maintain calm around the child.
[

"k ie

]

Based on the foregoing, the court awards Jennifer
Dasler primary legal and physical parental rights and
responsibilities for Tenlev. This decision is primarily
based upon the court’s conclusion that she has served
as Tenlev’s primary care provider, which the cases
cited above afford considerable weight. Many of the
other factors are in equipoise, but factors 8 and 9
slightly favor Ms. Dasler.
As noted above the court will issue a separate
final PRR-PCC order, using the proposed form the
Parties provided—with the primary legal and physical
PRR holder shown to be Plaintiff (Ms. Dasler), and
cross hatching cross outs to show where the court has
rejected one party or the other’s proposed provisions
on certain PCC schedule and related matters in the
draft order. The court has labelled that order as
“Exhibit A” and it is incorporated into this order as
part of the final divorce order in this case.
Property Division
On the issues of the division of property and allo­
cation of the parties’ debt, in a divorce the court has
wide powers. All property the parties owned, however
and whenever acquired, is subject to the court’s equitable
distribution powers. See 15 V.S.A. section 751(a). The

App.61a
Parties have distributed all moveable personal proper­
ty, including the vehicles. They contest some of the
values for some of the personal property items—
especially those involved with Mr. Dasler’s luthier
business. The court has found that (apart from the
Parties’ retirement accounts and Ms. Dasler’s current
bank accounts), the main asset is the Martial Home,
which has equity of $80,968. Mr. Dasler seeks a cash
award on property distribution. Ms. Dasler contests
that he should be given a cash award.
While the Parties’ may make arguments, based on
certain assumptions, that look for precision in the
distribution of property, the law does not use an exact
mathematical accounting of credits and debits to
achieve a property distribution award. It has aptly
been said that marital property division is not an
exact science. Plante v. Plante, 148 Vt. 234 (1987).
Moreover, a division of property and debt in a marriage
must be equitable, but need not be equal. See Myott v.
Myott, 149 Vt. 5763 (1988). The “equitable, but not
necessarily equal” proposition results in part from the
factors the legislature has adopted for trial courts to
use in making property division awards.
The Vermont statutes, at 15 V.S.A. § 751(b), set
forth factors for the court to apply to make property
division awards in a divorce. Those and other factors
are considered below.
(l) The length of the civil marriage.
The formal marriage was of relatively short
duration. It lasted just under five years from the time
of the marriage to the separation. (August 2012 to
May 2Q17). The court recognizes the Parties had
periods of cohabitation before the marriage. The

App.62a
superior court has broad discretion in considering how
to calculate the length of the marriage under the cir­
cumstances of the case. Wall v. Moore, 167 Vt. 580,
581 (1997) (mem.); MacKenzie v. MacKenzie, 2017 VT
111, Para. 13. However here, the Parties separated for
a time after their initial co-habitation and there was
no indication at the time they were going to resume their
relationship. The Parties’ lives became intertwined as a
couple when they got married and purchased a home.
They kept separate bank accounts until they
purchased the home and married and started to use
the joint account (in addition to their individual
accounts) to meet household expenses. The court uses
the marriage date as the start date to determine the
length of the marriage.
(2) The age and health of the parties.
Ms. Dasler is 35 is and Mr. Dasler is 37. Both are
in good health and able to work in their professions.
(3) The occupation, source, and amount of income
of each of the parties.
Ms. Dasler has maintained steady work in the
clothing industry for over 11 years. She has a stable
job earning $80,000 per year, with discretionary
employer bonuses, and good prospects to have her
salary raised. Her education, training and work
experience give her specialized skills that she can con­
tinue to use.
Mr. Dasler has specialized luthier skills, which
first off give him the ability to work for instrument
sellers/repairs (like Johnson String Instruments;
Vermont Violins; and Ellis Music). His ability to easily
re-gain entry into that work for another company may be

App.63a
compromised by the fact he has brought post-separa­
tion claims against two of the former employers, who
are likely less inclined to serve as employment refer­
ences for Mr. Dasler.
Mr. Dalser has the skills and abilities to run his
own luthier business-repairing and building string
instruments, with some work as a “middleman” in
acquiring bulk musical instrument purchases for
schools, etc. So far, he has not been able to earn more
than a very modest income at these endeavors.
However, Mr. Dasler has carpentry skills that he
can use to earn income. His current earning level is
about $33,500 per year. These carpentry skills are in
regular demand in the workplace and give him the
ability to work for companies in the construction busi­
ness.
(4) Vocational skills and employability.
See above for a discussion of this factor.
(5) The contribution by one spouse to the educa­
tion, training, or increased earning power of
the other.
During the marriage, the Parties’ maintained a
separate bedroom for Mr. Dasler to use as a workshop
to further his luthier skills. By the time of the 2012
marriage, Mr. Dasler had worked full time for Johnson
String Instruments and the Vermont Viohn Shop, and
wanted to use the skills he learned from Ms. Wallin,
to run his own luthier business and make and sell
custom instruments.
During the marriage, Mr. Dasler voluntarily
worked 30, rather than the offered 40, hours per week

App.64a
for Ellis Music, and used two days a week to work in
his luthier business. This had the impact of bis earning
less income for the household than if he had worked a
40 hour-a-week job. Finances were tight for the couple,
and the luthier business earned no appreciable income
from 2012-2017. Ms. Dasler tolerated (but did not
like), Mr. Dasler’s spending two days/week in devel­
oping his avocation while it made no money for the
household. Her forbearance in that regard allowed Mr.
Dasler to seek to further his luthier training skills
while his wife brought in the bulk of the household
income. After Tenley was born, Mr. Dasler less avail­
able for child rearing tasks than if he had limited his
focus on days when he did not work at Ellis Music to
providing child care for Tenley, and the couple had
child care costs on the workshop days.
(6) The value of all property interests, liabilities,
and needs of each party.
As described above, the home has a present equity
value of $81,000 or so. The Parties have about $50,000
collectively in retirement accounts, and while each has
some individual debt they have the ability to make
payment on the debt they have at present.
In deciding what to do as to the home equity, in
considering this factor (6), the court has considered
that Ms. Dasler has retirement accounts of about
$29,300, while Mr. Dasler’s accounts total $20,625,
but the court also considers that Mr. Dasler cashed in
the. inherited IRA during the separation. In weighing
Factor (6), the court also has considered that as to the
personal property the Parties each are awarded, and
the court’s downward adjustment as to the value of
Mr. Dasler’s instruments’ value (over their highest

App.65a
retail price). When the values the court assigns to the
luthier-related wood, tools, instruments and accessories,
plus jewelry in Mr. Dasler’s possession, are compared
against the combined values the court assigned above
to Ms. Dasler’s piano, jewelry, tools, appliance, elec­
tronics, furniture, lawn equipment, computer and
bank accounts—Mr. Dalser is receiving tangible
personal property under the award with a fair market
value of approximately $22,000 more in value than the
items awarded to Ms. Dasler.
(7) Whether the property settlement is in lieu of
or in addition to maintenance.
See the section on maintenance. While this was a
relatively short marriage, some maintenance is being
ordered and this has been taken into consideration in
the property division award.
(8) The opportunity of each for future acquisition
of capital assets and income.
The Parties are of a similar age and each have
marketable employment skills. Ms. Dasler’s income
earning ability is over twice that of Mr. Dasler’s due
to her more specialized, yet marketable, skills.
This means that Ms. Dasler is more likely of the
two Parties to accumulate capital assets and income
in the future.
(9) The desirability of awarding the family home
or the right to live there for reasonable periods
to the spouse having custody of the children.
The Parties have been separated for over a year
now, and Tenley and Ms. Dasler are residing in the
Marital Home. While it may be generally desirable to

App.66a
be able to award one of the spouses the home so Tenley
can continue to live there, Tenley is young, and has
not started school. If the home had to be sold to make
a property division award, Ms. Dasler and Tenley could
readily find another suitable home to live in.
(10) The party through whom the property was
acquired.
The main asset of significance in the marital
estate is the Marital Home. The court does note that
Ms. Dasler contributed about $6,000 to its purchase
(excluding the “cash back form sellers”), and considers
that in making its award about the home equity.
(11) The contribution of each spouse in the
acquisition, preservation, and depreciation or
appreciation in value of the respective estates,
including the nonmonetary contribution of a
spouse as a homemaker.
During the length of the marriage, and the time
they owned the Marital Home, the Parties contributed
the income they earned to help pay the marital
household expenses. While Ms. Dasler earned more
income than Mr. Dasler, unequal earning power is
common in marriages. As to the work performed on the
Marital Home, the court finds Mr. Dalser performed
more “sweat equity” (labor) than Ms. Dasler. Yet one
cannot track the impact of such labor on the home’s
fair market value in any reasonably accurate manner.
Neither spouse made significant nonmonetary home­
maker contributions to the household that exceeded
the sim ilar contributions of the other spouse.

App.67a
(12) The respective merits of the parties.
The court previously found that Ms. Dasler was
entitled to a final relief from abuse order against Mr.
Dasler. This factor is described in the PRR-PCC anal­
ysis, but is not given any significant weight in the
property division. The love between the Parties faded
before the separation and May 2017 incidents. Mutual
interpersonal strife over finances and other disagree­
ments became more common. This is not a case where a
long history of prior domestic abuse, or one party made
no monetary or nonmonetary contributions to running
the household, or had significant substance or alcohol
abuse issues that unduly placed the burden on the
other spouse to be responsible to earn household income
and run the household.
[***]
Applying these factors, each of the Parties is
awarded the personal property in their possession and
their banking and retirement accounts. Mr. Dasler is
awarded the “Santa and reindeer painting made with
Tenley’s foot” and Ms. Dasler is awarded “Tenley’s
hand imprint in plaster”, from her early childhood.
CSIeeTr. Ex. K, at page 2; Trial Record, 6/12/18 at 3:18
pm). To the extent these artwork items are amendable
to being copied or depicted in digital media without
damage to the original artwork8, the parent who is not
receiving the artwork, may at his or her own expense,
obtain a copy of the artwork being awarded to the
other parent.
8 Digital copies of a painting may be straightforward, and with
developing three dimensional digital copying technology it is
possible that “3-D” copying of the hand print artwork, assuming
it is a three dimensional depiction, will be feasible.

App.68a

Each Party is awarded the motor vehicle in their
possession but are required to pay all debts and
expenses associated with that vehicle. Each Party will
be ordered responsible for the personal debt, including
credit card debt in his or her name, as well as medical
bills, as listed in their 813 Lists of assets in this case.
Each Party is awarded his or her retirement accounts,
and the bank accounts in their own name. Mr. Dasler
is awarded the tools, parts, wood, instruments and
accessories, and any work-in progress, or billing
invoices, associated with his luthier business or viohn
selling business, but he is responsible for any debt
associated with such business activities.
As to the Marital Home (74 North Road: Vershire,
Vermont), it is awarded to Ms. Dasler. She is solely
responsible to pay the mortgage, property taxes, and
other expenses related to that property (both currently
due and in the future).
In addition to the above property and debt
distribution provisions, after considering the factors
for property division awards, Mr. Dasler is awarded a
marital property division cash payment of $24,000.
Payment of this sum will be due by February 28, 2019,
and shall be secured by the Marital Home and linked
to its refinance and/or sale as described below. The
unpaid balance of the $24,000 figure will bear interest,
at the annual rate of 6% per year, commencing 1/1/19,
if the figure is not fully paid by that date.
Mr. Dasler:shall provide Ms. Dasler a quit claim
deed to. transfer his interest in the property to Ms.
Dasler, but she shall have the.responsibility to refinance
the Marital Home property to release Mr. Dasler from
liability under the current note secured by the mortgage
against the home. Such quit claim deed may be held

App.69a
in trust until the refinancing occurs. Such refinancing
may be combined with Ms. Dasler taking out a larger
note and mortgage to complete the $24,000 cash award
to Mr. Dasler ordered under this order. Ms. Dasler
shall be given until February 29, 2019 to complete the
refinancing and will indemnify Mr. Dasler for any
expenses, including attorney fees, that he may incur if
the mortgage and secured note are not kept current
after the date of this order. At Mr. Dasler’s sole discre­
tion and expenses, to secure his priority of payment
for the martial property lump sum payment due him
under this order, he may have a mortgage prepared to
secure his payment of the indicated sum, and Ms.
Dasler will cooperate in signing such mortgage
If the home is not refinanced by the indicated date,
Mr. Dasler may request in writing that the home be
sold to discharge him from the note securing the
mortgage, and or to provide funds to complete the
$24,000 payment due him. The court will issue a sup­
plemental order to describe the terms of the sale of the
home if the Parties cannot agree to the sale procedure.
B) Maintenance
The court considers Mr. Dasler’s request for
maintenance. The court first considers the 15 V.S.A.
section 752(a) maintenance issues as to whether
maintenance may be appropriate:
(l) Whether Mr. Dasler lacks sufficient income,
property, or both, including property appor­
tioned in accordance with section 751 of this
title, to provide for his or her reasonable needs;
Mr. Dasler lacks sufficient income to pay his rea­
sonable expenses, even while trying to maintain a

App.70a
simple lifestyle, as described above in the findings. Al­
though he is being awarded a cash property
settlement, as Ms. Dasler lacks ready cash reserves
she is being given time to refinance the home, to
obtain the funds to pay that sum (with sale of the
home in 2019 as the fallback method to secure the
property division award). Mr. Dasler is unlikely to be
able to significantly increase his earnings or decrease
his expenses.
(2) Whether Mr. Dasler is unable to support
himself through appropriate employment at the
standard of living established during the civil
marriage
The parties lived a modest lifestyle, but a more
comfortable lifestyle than what Mr. Dasler faces as he
has to pay his bills and run a separate household.
Thus under V.S.A. section 752(b) consideration of
some maintenance is appropriate, in such amounts and
for such periods of time as the court deems just, after
considering all relevant factors including, but not
limited to these statutory factors:
(l) The financial resources of the party seek­
ing maintenance, the property apportioned
to the party, the party’s ability to meet his
or her needs independently, and the extent
to which a provision for support of a child
living with the party contains a sum for that
party as custodian;
Apart from the issue of the marital home equity
addressed elsewhere in this opinion, Mr. Dasler received
limited personal property, and his luthier business
wood, tools, equipment and instruments, and his two

App.71a
modest retirement accounts out of the divorce. His
limited income, when compared to his modest necessary
expenses, leaves gaps as discussed above. Mr. Dasler
as a worst case might draw upon his retirement funds,
but like Ms. Dasler, he should be able to try to conserve
those funds for his future retirement. To the extent
Mr. Dasler might receive any child support payments
from Ms. Dasler for any increased time the children
spend with him, that will be offset by the expenses of
having Tenley with him half of the time. The court has
not considered child-related expenses in trying to
review his expenses and needs.
(2) The time and expense necessary to acquire
sufficient education or training to enable
the party seeking maintenance to find
appropriate employment;
Mr. Dasler’s formal education and work experience,
which relate to a focused area (stringed instruments)
are such that further education in those areas will not
significantly increase his earning ability. Making a
steady income as a luthier, making and selling highend instruments, is a difficult course to chart. Income
growth from his luthier-related self employment is
likely to be gradual. Mr. Dasler can earn income from
his carpentry skills, and perhaps focusing his efforts
on the finer carpentry (cabinets, etc.) he might achieve
a higher pay rate, but there are likely to be less job
opportunities. At present there appear to be no
identified new vocational areas, requiring more edu­
cation or training, that Mr. Dasler will pursue to
significantly increase his earning capacity.

App.72a
(3) The standard of living established during
the civil marriage;
By all apparent circumstances and from the
testimony provided, the Daslers lived a simple lifestyle.
They owned a basic home and each had a car, but did
not buy fancy material goods, or take extravagant
trips. Then and now, economically they are each just
trying to get by and meet necessary bills.
(4) The duration of the civil marriage;
The marriage is of a just under five year duration,
as noted above.
(5) The age and the physical and emotional
condition of each spouse;
Ms. Dasler is 35 and in good health. She has not
raised any significant physical or mental-emotional
conditions that negatively affect her ability to move on
from the divorce and earn a livelihood, especially as
she has taken medication and received counselling if
and as necessary for any mental-emotional condition.
Mr. Dasler is 37 years old and in good health. He
has not raised any significant physical or mentalemotional conditions that negatively affect his ability
to move on from the divorce and earn a livelihood.
(6) The ability of the spouse from whom main­
tenance is sought to meet his or her reason­
able needs while meeting those of the
spouse seeking maintenance;
Ms. Dasler has a good and steady job, that earns
her over $80,000 a year. However even as she lives
conservatively, she has a tight budget to meet her

App.73a
expenses. Her June 2018 813 Affidavit showed she was
making $240/month payments towards credit cards
approximating $2400. In about eight months she will
have that debt paid off, or alternatively she can reduce
her monthly payments on that debt. However,
realistically Ms. Dasler lacks available income to
make large maintenance payments, after meeting her
reasonable expenses.
(7) Inflation with relation to the cost of living
Inflation in the past several years has been low
and consumer prices have increased slowly in recent
years. The court has considered this factor in fashioning
the maintenance award in this case.
(8) The following guidelines:
Length of
% of the differ­ Duration of ali­
marriage award ence between mony % length of
parties’ as gross marriage
incomes
0 to < 5 years

0-20%

No Alimony or
short-term ali­
mony up to one
year

5 to < 10 years

15-35%

20-50% (1-5 yrs)

10 to < 15 years

20-40%

40-60% (3-9 yrs)

15 to < 20 years

24-45%

40-70%
(6-14 yrs)

20 + years

30-50%

45% (9-20+yrs)

These alimony guidelines were recently added by
the Vermont legislature in 2017 as a factor that, may

App.74a
be applied in making alimony determinations. They
were adopted after a legislative study group reviewed
maintenance practices under the other factors and
family law practitioners’ concerns over alleged broad
discrepancies and unpredictability in the manner in
which maintenance awards have been issued.
Using the 4 year, 9 month marriage length deter­
mination described elsewhere in this opinion, the
parties’ marriage falls under the first, possibly second,
row of the above guidelines. The court finds the
parties’ incomes to be (including inferred income for
Mr. Dasler, and the expected raise for Ms. Dasler that
brings her income above the current salary, plus bonus,
figure) $6,209/month for Ms. Dasler, and $$2,951/month
for Mr. Dasler. The difference between those figures is
$3,258 per month.
The first row of the guidelines recommend that
maintenance fall within a “low” range, using 0% of the
income difference (here, 0.00 X $3,258 = $0/month) to a
“high” range, using 20% of the income difference (here,
0.20 X $3,258 = $651/month). The lower percentage of
income used for the second row (5 to <10 year
marriage) uses 15% of the income difference, which
here would be 0.15 x $3,258 = $488/month.
The third column of the guidelines recommends a
maintenance duration of 0 to 12 months for marriages of
five years or less. The third column’s duration of
maintenance payments for marriages of 5 to < 10 years
uses 20% to 50% of the length of the marriage, which
for a 5 year marriage would be 1 to 2.5 years.
[

it it rk

]

Based on the forgoing factors, pursuant to 15
V.S.A. section 752, the court orders Ms. Dasler to pay

App.75a

Mr. Dasler spousal maintenance in the amount of $300
per month for a two year period, commencing Septem­
ber 1, 2018 to August 1, 2020. This marriage lasted
just under five years. The parties have significant
earning capacity differences, and Mr. Dasler will have
a more difficulty meeting his reasonably monthly
expenses. The court is keeping the monthly payments
lower than the guidelines and maintenance factors
might otherwise suggest, but for the court using a
longer payment period than might be typical for a five
year mortgage. Ms. Dasler is more likely to be able to
afford the moderate sums for a slightly longer period
than higher monthly amounts for a short period.
Monthly payments over a three year period, it would
amount to thirty-six $416 monthly payments.
Miscellaneous-In the future if the Parties are
unable to work out a disagreement relating to the
terms of this order on their own (other than motions
for emergency relief, or by Mr. Dasler to require the
sale of the Marital Home), they are to attempt to
resolve the dispute through mediation before coming
back to court. The Parties shall cooperate in executing
any and all documents reasonably necessary to
accomplish the terms of this agreement. Each party
shall keep the other informed of any change of address,
email, or phone number so long as there are any
continuing obligations under this order, including the
PRR-PCC order incorporated as Exhibit A. Other than
as set forth in this Order, each party shall indemnify
and hold the other harmless from any claim relating
to an obligation for which he or she is responsible
under this order.
A PERSON WHO FAILS TO COMPLY WITH ALL
TERMS OF THE CURRENT ORDER GOVERNING

App.76a
PARENT CHILD CONTACT MAY BE SUBJECT TO
CONTEMPT OF COURT CHARGES. THE COURT
MAY IMPOSE ADDITIONAL REMEDIES INCLUD­
ING A MODIFICATION OF THE CURRENT PARENT
CHILD CONTACT ORDER IF FOUND TO BE IN THE
BEST INTERESTS OF THE CHILD.
Electronically signed on August 17, 2018 at 12:08
PM pursuant to V.R.E.F. 7(d).
/s/ Michael J. Harris
Superior Court Judge
Electronically signed on August 17, 2018 at 12:08
PM pursuant to V.R.E.F. 7(d).
. is/ Hon. Joyce McKeeman
Assistant Judge
Electronically signed on August 17, 2018 at 12:08
PM pursuant to V.R.E.F. 7(d).
is/ Victoria N. Weiss
Assistant Judge

App.77a

PARTIAL PROPOSED ORDER: AGREEMENT ON
PARENTAL RIGHTS AND RESPONSIBILITIES,
PARENT CHILD CONTACT AND PROVISIONS
RELATING TO CHILDREN
(AUGUST 17, 2018)
STATE OF VERMONT SUPERIOR COURT
ORANGE FAMILY DIVISION
JENNIFER DASLER,
Plaintiff,
v.
TIMOTHY DASLER,
Defendant.
Docket No. 74-6-17 Oedm
Before: Michael J. HARRIS, Superior Court Judge.,
Joyce MCKEEMAN, Assistant Judge.,
Victoria N. WEISS, Assistant Judge.
This Partial Final Parenting Plan is proposed by
the parties and is for the following child:
•

Tenley Elizabeth Dasler [DOB 8/27/2015].

•

A relief from abuse order involving the parties
is in effect.

•

The starting date of the plan is the date of the
Order.

App.78a
1.

Legal Responsibility:

a) Major Decisions: These include, but are not
limited to, decisions about the child’s education, non­
emergency health and dental care, and religious
training.
Shared Decision-Making: Plaintiff is awarded
decision-making authority. Plaintiff shall consult with
the Defendant before making major decisions. Plain­
tiff shall advise the Defendant in advance of the deci­
sion and the options she is considering. Plaintiff shall
give Defendant meaningful opportunity to have input
regarding the options prior to making a final decision.
b) Dav-To-Dav Decisions: Each parent shall
make day-to-day decisions for the child during the
time he/she is caring for the child. This includes any
emergency decisions affecting the health or safety of
the child. A parent who makes an emergency decision
shall share the decision with the other parent as soon
as reasonably possible.
2.

Physical Responsibility & Parenting Schedule:

Physical Responsibility is the responsibility to
provide the routine daily care of a child. Physical res­
ponsibility can be held solely by one (l) parent or may
be shared by both parents. If physical responsibility is
held primarily by one (l) parent, it is subject to the
other parent’s right to parent child contact.
Plaintiff shall have primary physical responsi­
bility.
3.

Parenting Schedule:

a) The routine weekly schedule shall be the
following:

App.79a

Monday

Plaintiff

Defendant

Tuesday

Plaintiff

Defendant

Wednesday

Defendant

Plaintiff

Thursday

Defendant

Plaintiff

Friday

Plaintiff

Defendant

Saturday

Plaintiff

Defendant

Sunday

Plaintiff

Defendant

Exchange Times:
•

PLAINTIFF’S PROPOSAL:

Parenting Times: Parenting times will begin at
the start of school/daycare. In the event Tenley
does not attend daycare/school, for whatever
reason, parenting time shall begin at 8:00 a.m.
unless the parents agree otherwise.
b) Holiday and Birthday Planning: The holidays
and birthday(s) listed below should be shared as
described. Specify start and end times and days/dates
as necessary. (For example, Thanksgiving: One parent
- even years, other parent - odd years, starting on the
Wednesday prior to Thanksgiving at 6:00 p.m., ending
the Friday after Thanksgiving at 6:00 p.m.). Parenting
time on holidays and birthdays which are not checked
and described shall be according to the routine
schedule set forth above.
•

Mother’s Day: With Plaintiff from 9:00 a.m.
through 5:00 p.m.

•

Father’s Day: With Defendant from 9:00 a.m.
through 5:00 p.m.

•

Thanksgiving:

App.80a

PLAINTIFF’S PROPOSAL: With Plaintiff in even
years and with Defendant in odd years. The
Thanksgiving holiday will begin Wednesday after
school and conclude on the following Friday at
9:00 a.m. when the routine schedule will resume.
If a party exercising Thanksgiving parenting
time intends to travel out of Vt. for more than four
(4) days (or if Tim’s immediate family [father,
siblings] travels to Vt. for Thanksgiving), then the
parenting time will extend until the start of
school on the following Monday. However, if
traveling with the child causes the other parent to
miss his/her regularly scheduled weekend after
Thanksgiving, that parent shall have the
following two (2) weekends.
•

Christmas: With Plaintiff in odd years and with
Defendant in even years. Christmas parenting
time shall be from noon on the 24th through
12:00 p.m. on the 25th and with the other parent
from 12:00 p.m. on the 25th through 12:00 p.m.
on the 26th.

•

Easter—Defendant shall have even numbered
from Sunday at 9:00 a.m. through Sunday at
5:00 p.m. in even number years; Plaintiff at the
same times in odd numbered years.

•

Halloween—Defendant from after school [or 3:00
p.m. if no school] until 9:00 a.m. the next
morning in even numbered years; Plaintiff at the
same time in odd numbered year.

•

July 4th—Defendant from 9:00 a.m. on July
4th through 9:00 a.m. on July 5th in even year;
Plaintiff at the same time in odd numbered
years.

App.81a

c) Three-dav weekends: The parent exercising
parenting time on a weekend before a Monday Federal
holiday shall have extended parenting time until the
start of daycare/school (or 9:00 a.m. if there is no
daycare/school) on Tuesday.
d) Vacation Schedule:
(i)
•

December Vacation:
PLAINTIFF’S PROPOSAL:

No December vacation schedule shall apply. How­
ever, after Tenley begins Kindergarten if a parent
seeks to travel with Tenley out of Vt. for at least
four (4) days [or if Tim’s immediate family [father,
sibblings] travels to Vt. for Christmas for at least
4 days] he/she may request that Christmas school
vacation be evenly distribution with each parent
taking extended time. This request must be made by
November 1st each year.
(ii) February, April, and Summer Vacations:
Once Tenley starts 1st grade, the parties will
alternate February and April school vacation.
Parenting time shall be from Friday starting
at 9:00 a.m. and ending at 7:30 a.m. on the
Monday after school break. Plaintiff shall have
February break in odd years and Defendant
shall have February break in even years.
Plaintiff shall have April break in even years
and Defendant shall have April break in odd
years.
Summer 2018
Defendant shall have Tenley from 7/23/18 at 8:00
a.m. through 7/30/18 at 5:00 p.m. to travel to Wisconsin
to visit with his family. Defendant shall assure that

App.82a
Tenley has one FaceTime during the week with the
Plaintiff.
Plaintiff has not designated a vacation period for
the summer of 2018. However, she shall have a right
to the same length of time as the Defendant.
•

PLAINTIFF’S PROPOSAL:

During the summer each party shall have a right
to two (2) non-consecutive seven (7) day periods
(inclusive of regular parent time). The parties
shall exchange summer vacation plans no later
than April 15th each year. In the event of a
conflict, Father’s schedule will prevail in even
numbered years and Mother’s will prevail in odd
numbered years.
4.

Transportation and Exchange of Child:

In the event that the parenting exchanges do not
occur at daycare/school, the parenting exchanges will
take place at Wings Market in Fairlee, Vermont.
5.

Parent-Child Telephone Contact:

While the child resides with one (l) parent, the
other parent shall be permitted to speak by telephone
with the child at reasonable times.
6.

Parent-Child Written Communication:

Both parents and the child shall have the right to
communicate in writing, phone texting or by e-mailing
during reasonable hours without interference or moni­
toring by the other parent.

App.83a
7.

Information Sharing and Access, Including Tele­
phone and Electronic Access:
Unless there is a Court Order stating otherwise:

Both parents have equal rights to inspect and
receive the child’s school records, and other parents
are encouraged to consult with school staff concerning
the child’s welfare and education. Both parents are
encouraged to participate in and attend the child’s
school events.
Both parents have equal rights to inspect and
receive governmental agency and law enforcement
records concerning the child.
Both parents have equal rights to consult with
any person who may provide care or treatment for the
child and to inspect and receive the child’s medical,
dental or psychological records, subject to other statu­
tory restrictions.
Each parent has a continuing responsibility to
provide a residential, mailing, or contact address and
contact telephone number to the other parent.
Each parent has a continuing responsibility to
notify the other parent of any emergency circumstances
or substantial changes or decisions affecting the child,
including the child’s medical needs, as close in time to
the emergency circumstances as possible.
8.

Plans to Relocate a Parent’s Residence:

If either parent plans to relocate to a residence
that will impact the child’s school enrollment or
increase the distance between the parent’s home by
more than twenty (20) miles [driving distance], the

App.84a
parent who relocates shall provide the other parent
with sixty (60) days’ notice.
9.

Procedure for Review and Adjustment of Parenting
Plan:

Meetings shall not be on a set schedule but shall
be as often as necessary for the benefit of the child, but
no less than once annually.
10. Procedure for Resolving Disputes:
In the future, if the parents have a disagreement
about parenting issues, the parents shall try to work
it out in the best interest of the child. If the parents
are unable to work out the disagreement, they shall
seek the help of a neutral third party to assist them.
Only if the parents are unable to work out the
disagreement after seeking third party assistance will
they ask the Court to decide the issue.
11. Other Parenting Responsibilities:
Each parent shall promote a healthy, beneficial
relationship between the child and the other parent
and shall not demean or speak out negatively (or allow
any third party to do so in the presence of the child) in
any manner that would damage the relationship
between either parent and the child.
Neither parent shall permit the child to be sub­
jected to persons abusing alcohol or using illegal
drugs. This includes the abuse of alcohol or the use of
illegal drugs by the parent.
The parties agree to, or the Court establishes, the
following additional expectations:

App.85a

a)

A parent requesting a temporary change to
the parenting schedule shall act in good faith
and ask the other parent about such change
as soon as possible. The parents are expected
to fairly adjust parenting schedules when
family situations, illnesses, or other commit­
ments make modification reasonable.

b)

If a parent requires child care by some person
who does not reside in his or her residence,
for a period reasonably expected to last longer
than one (l) overnight, then the other parent
shall be offered the opportunity to parent the
child. This section does not apply to regularly
scheduled day care.

c)

Each parent shall supply the appropriate
child’s clothing for them for their scheduled
time with the other parent. These clothes are
to be considered the child’s clothes and shall
be returned with the child.

d)

Each parent shall be responsible for ensur­
ing that the child attends regularly sched­
uled activities, including, but not limited to,
sports and extra-curricular activities, while
the child is with the parent.

12. Other Parenting Agreements:
A.

If either parent plans to travel with Tenley
out of Vermont for more than one (l) over­
night, that parent shall provide the other
parent with an itinerary [location of travel]
and her/her travel plans.

App.86a

•

DEFENDANT’S PROPOSAL:

Once Tenley is of an age where she can participate
in FaceTime without assistance and in the event
of extended parenting time [6 days] the parent
exercising extended parenting time shall assure
that Tenley is provided with the opportunity for
at least one (l) FaceTime contact with the non­
parenting parent during that period
SO ORDERED:
/s/ Michael J. Harris
Superior Court Judge
Is/ Joyce McKeeman
Assistant Judge
/s/ Victoria N. Weiss
Assistant Judge

App.87a
MEMORANDUM IN SUPPORT OF
8:00 A.M. EXCHANGE TIME
(JULY 23, 2018)
STATE OF VERMONT, SUPERIOR COURT
ORANGE FAMILY DIVISION
JENNIFER DASLER,
Plaintiff,
v.
TIMOTHY DASLER,
Defendant.
Docket No. 74-6-17 Oedm
NOW COMES, Plaintiff, Jennifer Dasler, by and
through her attorneys, Brannen and Loftus, PLLC, and
hereby submits this Memorandum in Support of 8:00
a.m. Exchange Time, relative to the parties’ Partial
Proposed Order: Agreement on Parental Rights and
Responsibilities. In further support, Plaintiff states as
follows:
1.

Plaintiff works in Northfield, Vermont, which
is geographically in the opposite direction of
the parties’ exchange location in Fairlee,
Vermont. If the parties’ parenting exchanges
occur at 9:00 a.m., Plaintiff will be late for
work.

App.88a

2.

Plaintiff would like the default exchange time
to be 8:00 a.m., not 9:00 a.m. as requested by
the Defendant. This way there will never be
any confusion causing the Plaintiff to be late
for her employment.

Dated at Hanover, New Hampshire this 23rd day
of July, 2018.
Respectfully submitted,
JENNIFER DASLER
By: /s/ John B. Loftus III. Esa.
VT Bar No. 4246
Brannen & Loftus, PLLC
1 Maple Street
Hanover, NH 03755
Phone: 603-277-2971
Fax: 603-277-2974

App.89a

TEMPORARY ORDER ON PARENTAL RIGHTS
AND PARENT-CHILD CONTACT
(AUGUST 1, 2017)
STATE OF VERMONT
SUPERIOR COURT FAMILY DIVISION
ORANGE UNIT
JENNIFER DASLER,
Plaintiff,
v.
TIMOTHY DASLER,
Defendant.
Docket No.74-6-17 Oedm
Before: Timothy B. TOMASI, Superior Court Judge.,
Joyce MCKEEMAN, Assistant Judge.,
Vickie WEISS, Assistant Judge.
This matter came before the Court this day for
hearing in a consolidated docket. The Court made
findings of fact on the record and based on the best
interests of the child, orders the following temporary
relief
1. Mother shall have primary legal and physical
rights and responsibilities for the parties’ minor child
Tenley.

App.90a

2. Father shall continue to have visits as provided
in the June 12, 2017 Stipulation between the parties.
3. Father shall complete anger management
screening within 30 days and engage in any
recommended treatment.
4. Father may request review of this contact order
after completion of such screening if no counselling is
recommended or after beginning counselling if it is
recommended.
Dated at Chelsea, Vermont, this 1st day of August.
2017.
/s/ Timothy B. Tomasi
Superior Court Judge
Joyce McKeeman
Assistant Judge
/s/ Vickie Weiss
Assistant Judge

App.91a

EXTENDED TEMPORARY ORDER:
RELIEF FROM ABUSE
(MAY 23, 2017)
STATE OF VERMONT SUPERIOR COURT
ORANGE FAMILY DIVISION
JENNIFER DASLER,
DOB 05/06/1983
Plaintiff,
v.
TIMOTHY DASLER,
DOB 11/16/1980
Defendant.
Docket No. 35-5-17 Oefa
Before: Timothy B. TOMASI, Superior Court Judge.,
Joyce MCKEEMAN, Assistant Judge.,
Vickie WEISS, Assistant Judge.
Minor Child/ren who have been abused or require
protection^
Name(s) and Date(s) of Birth of Minor Child/ren:
Tenley Elizabeth Dasler 08/27/2015
Complaint filed on: 05/15/2017
tHearingttW,asjHeldtoni5/23/jlt7^m»ame=ffi=====|^^^B

App.92a
The following persons were present:
Plaintiff with attorney
Defendant attorney
Findings of the Court:
•

Defendant has abused Plaintiff in that Defendant
has:
o Caused physical harm.
o Attempted to cause physical harm.
o Stalked Plaintiff, as defined in 12 V.S.A.
5131(6).

•

There is an immediate danger of further abuse.

•

Plaintiff and Plaintiffs Child/ren has/have been
or will be forced from the household and without
shelter unless the Defendant is ordered to vacate
the premises.

•

There is immediate danger of physical or
emotional harm to the minor child/ren.

Order of the Court:
•

The application for an ex parte ORDER is
GRANTED, as follows:
1.

Defendant shall not abuse Plaintiff and the
minor child/ren named above, and Defendant
shall not threaten, assault, molest, harass,
or otherwise interfere with his/her/their per­
sonal liberty.

2.

Defendant shall refrain from stalking plaintiff
the minor child/ren and refrain from inter­
fering with his/her/their per^^

App.93a

3.

Defendant shall vacate the residence immed­
iately and plaintiff shall have the sole posses­
sion of the residence located at: 74 North Rd,
Vershire, VT 05079.

4.

Defendant shall not enter the residence
except with Plaintiffs prior permission AND
in the presence of a law enforcement officer.

5.

Temporary parental rights and responsibilities
(custody) of the minor child/ren named below
is awarded to:
Plaintiff

Name(s) and Date(s) of Birth of Minor
Child/ren:
Tenley Dasler 08/27/2015
7.

Defendant may not have face-to-face contact
with Plaintiff or the minor child but may have
contact with Plaintiff and the minor child by
telephone, skype, email, text, or through a
third party.

8.

Defendant shall stay 300 feet away from:
o Plaintiff
o Plaintiffs residence
o Plaintiffs place of employment
o Plaintiffs motor vehicle
o Child/ren named in #5 above
o Child’s daycare.

11. Other: Parent-child contact to be discussed
=at=hearing.—..

App.94a
VERMONT LAW ENFORCEMENT OFFICERS
ARE AUTHORIZED TO ARREST WITHOUT
WARRANT PERSONS WHO VIOLATE THE ABOVE
PROVISIONS OF THIS RELIEF FROM ABUSE
ORDER.
VIOLATION OF THIS ORDER IS A CRIME
SUBJECT TO A TERM OF IMPRISONMENT OR A
FINE, OR BOTH, AND MAY ALSO PROSECUTED AS
CRIMINAL CONTEMPT PUNISHABLE BY FINE
OR IMPRISONMENT, OR BOTH.
**This order may be served by any
law enforcement officer.**
A HEARING will be held on 6/6/2017 at 9:00 AM
Vt. Superior Court, Family Division
Orange Unit
5 Court Street
Chelsea, Vermont 05038
(802) 685-4610
The temporary order remains in effect until the
Court dismisses the case or, after a hearing, issues an
order or denies a final order, or at 5;00 PM on the date
of hearing, whichever is earlier.
So ordered. Click here to sign.
Dated at Chelsea, Vermont, this 23 day of May.
2017.
/s/ Timothy B. Tomasi
Superior Court Judge
/s/Jovce McKeeman
Assistant Judge-

App.95a

/s/ Vickie Weiss

Assistant Judge

.»• -

■.*—-r. •

.A-

A.

;

Iff

App.96a

ORDER OF THE SUPREME COURT
DENYING MOTION FOR REARGUMENT
(JULY 8, 2019)
SUPREME COURT OF VERMONT
JENNIFER DASLER
v.
TIMOTHY DASLER
Supreme Court Docket No. 2018-301
Appealed from: Superior Court, Orange Unit,
Family Division. Docket No. 74-6-17 Oedm
Before: Beth ROBINSON, Associate Justice.,
Harold E. EATON, Jr., Associate Justice.,
Karen R. CARROLL, Associate Justice.
In the above-entitled cause, the Clerk will enter:
Appellant’s July 1, 2019 motion for reargument
fails to identify points of law or fact overlooked or
misapprehended in this Court’s June 24, 2019 decision;
accordingly, the motion is denied.
BY THE COURT:
Is/ Beth Robinson
^Associate1#us'tice1

App.97a
/s/ Harold E. Eaton. Jr.
Associate Justice
/s/ Karen R. Carroll
Associate Justice

App.98a

PLAINTIFF TRAIL EXHIBIT
(JUNE 6, 2018)
Modification and Make-up Parenting Time for
36 Weeks from June 9, 2017 [Temporary Stipulation]
through February 16, 2018 [Motion Hearing!
June 9th stipulation-Two visits a week
First Visit-June 13, 2017
70 Visits
•

6/18/17-Tim requested to move Saturday visitation
to Sunday for Father’s Day. I agreed.

•

6/18/17—Tim requested to move Saturday visitation
to Sunday. I agreed.

•

7/18/17-Visit cancelled. Tenley sick.

•

7/22/17-Visitation suspended

•

7/25/17-Visitation suspended

•

7/29/17-Visitation suspended

•

10/3/17—Visit cancelled.
Facetime. Tim accepted.

•

10/7/17—Tenley spent an extra 1 hour with her
father to make up time for being sick on 10/3.

•

10/17/17-Tenley spent an extra 1 hour with her
father to make up time for being sick on 10/3.

•

11/25/17—Tim requested to move visitation on
Saturday to Sunday. I agreed.

•

12/2/17-Visitation cancelled. Tenley sick. Offered
Facetime. Tim refused.

Tenley

sick.

Offered

12/5/17-Visit cancelled. Tenley sick and seen by Dr

App.99a

•

12/12/17—Visit cancelled.
Facetime. Tim accepted.

Snowstorm.

Offered

•

12/15/17—Tenley spent 1.15/hour with her father to
make up time for cancellation on 12/12 due to
snowstorm. I was late due to urgent vet appt.

•

12/16/17-Tenley spent extra half hour with her
father to make up time for cancellation on 12/12
due to snowstorm.

•

1/13/18-Tim requested to move visitation from
Saturday to Sunday. Tim notified Tenley is conta­
gious with Hand, Foot, and Mouth. Visitation
_cancelled. Tenley sick.___
__

•

1/16/18-Visitation cancelled. Tenley sick. Hand,
Foot, and Mouth.
8 = Missed parenting time from sickness or
weather
2 = Missed Parenting Time that was Made-up
7 = Accommodated Tim’s request to modify
parenting time or make up time for cancelled visit
because of sickness or weather.

App.lOOa

STIPULATION RE: PARENT CHILD CONTACT
(JUNE 9, 2017)
STATE OF VERMONT, SUPERIOR COURT
ORANGE UNIT FAMILY DIVISION
JENNIFER DASLER,
Plaintiff,
v.
--------- TIMOTHY. DASLER,„ _... .
Defendant.
Docket No. 37-5-17 Oefa
The parties, with counsel, have engaged in medi­
ation regarding parent child contact in connection with
the above captioned matter. The parties agree to the
following pending the hearing on June 20, 2017 or any
postponement of that hearing:
1. Defendant Timothy Dasler will have parent
child contact with Tenley Dasler, the minor child, on
two days each week, for two hours each visit. Said
contact will occur as follows:
a.

irrr

at either the Upper Valley Aquatic Center or
the Montshire Museum,

b. Plaintiff Jennifer Dasler will provide trans-——portation-toandTromThe-venuefor-Tenley;

App.lOla

c.

Timothy will not take Tenley to any other
location during these visits, nor will he remove
her from the state of Vermont;

d.

Timothy will not transfer supervision of
Tenley to any third party during visits; and

e.

Timothy will obtain an anger management
evaluation through HCRS and follow all re­
commendations made by the evaluator.

2. The parties agree and acknowledge that they
do not expect or contemplate that contact between
Timothy and Tenley will continue on the schedule
currently agreed herein, and that they will work to
normalize that contact as this matter or any related
matter progresses. The parties agree that one of the
visits in June 2017 will occur on Father’s Day.
3. The parties will file an agreed upon Motion to
Modify the Current Relief from Abuse Order to
accommodate the contact agreed upon herein.
4. The parties agree that Timothy and Tenley may
continue to .utilize Face Time for additional contact as
agreed by the parties.
Respectfully submitted this June 9, 2017.
/s/ Jennifer Dasler
Plaintiff
/s/ Timothy Dasler
Defendant ; ;

m

App.l02a
Approved as to Form:
/s/ Brian Marsicovetere. Esq.
Attorney for Plaintiff
/s/ Catherine Dux, Esq.
Attorney for Defendant

